<html>
<title> - A REVIEW OF THE IMPLEMENTATION OF THE LAND AND WATER CONSERVATION FUND PROGRAM</title>
<body><pre>[Senate Hearing 116-326]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-326

                   A REVIEW OF THE IMPLEMENTATION OF
                    THE LAND AND WATER CONSERVATION
                              FUND PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov        
        
                                  __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-806                     WASHINGTON : 2020                     
          
-----------------------------------------------------------------------------------        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Annie Hoefler, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                               WITNESSES

Combs, Hon. Susan, Assistant Secretary for Policy, Management and 
  Budget, U.S. Department of the Interior........................     6
French, Chris, Acting Deputy Chief, National Forest System, U.S. 
  Department of Agriculture--Forest Service......................    13
Imgrund, Lauren S., President, National Association of State 
  Outdoor Recreation Liaison Officers............................    18
O'Mara, Collin, President and CEO, National Wildlife Federation..    25
Yablonski, Brian, Executive Director, Property and Environment 
  Research Center................................................    35

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Hiking Society:
    Letter for the Record........................................    91
Back Country Horsemen of Washington:
    Letter for the Record........................................    93
Combs, Hon. Susan:
    Opening Statement............................................     6
    Written Testimony............................................     8
    Responses to Questions for the Record........................    78
French, Chris:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Responses to Questions for the Record........................    81
Imgrund, Lauren S.:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Response to Question for the Record..........................    83
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Trust for Historic Preservation:
    Statement for the Record.....................................    94
O'Mara, Collin:
    Opening Statement............................................    25
    Written Testimony............................................    28
    Responses to Questions for the Record........................    84
Outdoor Alliance:
    Letter for the Record........................................    96
Property and Environment Research Center (PERC):
    Public Lands Report entitled ``How We Pay to Play'' by Tate 
      Watkins dated May 2019.....................................    99
Yablonski, Brian:
    Opening Statement............................................    35
    Written Testimony............................................    37
    Response to Question for the Record..........................    89

 
A REVIEW OF THE IMPLEMENTATION OF THE LAND AND WATER CONSERVATION FUND 
                                PROGRAM

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here this morning to talk about the Land and Water 
Conservation Fund, the ``LWCF.''
    The last hearing that we held on this was back in 2015. The 
authority to credit the LWCF with $900 million each year was 
expiring that September, if you will recall. Our Committee was 
trying to piece together an energy bill. We were looking to 
ultimately include a permanent authorization of this authority 
and programmatic reforms.
    It did not happen then, but four years later, our lands 
package, including the LWCF provision, became law as the John 
D. Dingell, Jr. Conservation, Management, and Recreation Act. 
Now that the collection and deposit functions of the LWCF have 
been permanently authorized and we have made some important 
reforms along the way, it is time to look at what has worked 
with the program and the areas that can be improved.
    When LWCF was established in 1965, it was largely focused 
on building a recreation system. There was an understanding 
that in order to build the system, the Federal Government would 
need to acquire land, but that acquisition would be focused on 
the states east of the 100th Meridian. That made sense, as 
eastern states had far fewer public lands and therefore fewer 
opportunities for outdoor recreation.
    The House and Senate Committee reports made this point, and 
the original LWCF Act includes an express provision limiting 
Forest Service acquisitions in the west to ``not more than 15 
percent.''
    The Congressional intent expressed back then about federal 
land acquisition still rings true with this particular Senator. 
In Alaska, close to 63 percent of our lands are already held by 
the Federal Government. That is more than 220 million acres and 
just by size comparison, it is more land than there is in all 
of that State of Texas, and people think that Texas is a big 
state. So it just, kind of, puts it into context there. I have 
been skeptical of the need to acquire more, and I think many of 
my colleagues share that skepticism.
    Over the last 50+ years, most of the dollars appropriated 
to the LWCF program have been allocated to federal land 
acquisition. And despite Congress' intent to see land 
acquisition occur in the east, the land management agencies, as 
evidenced by the prioritization lists they produce for those of 
us on the Appropriations Committee, continue to push for land 
acquisitions in the West.
    Just last week, the GAO released a report that examined how 
the land management agencies used $952 million in 
appropriations from the Fund between the years 2011 and 2014. 
Most of the areas that were acquired were in the West, notably 
with North Dakota and Montana topping that list.
    I am sure that many of these acquisitions serve important 
conservation and recreation purposes, but our challenge now is 
to think differently and more creatively about the LWCF. 
Instead of federal land acquisition, I think we should ask what 
else it can accomplish for conservation and outdoor recreation 
into the future. We started to lay the groundwork in our recent 
lands package. We brought back a dedicated allocation in the 
LWCF for states of no less than 40 percent.
    We all know that states are critical partners in 
conservation and outdoor recreation, providing some of our 
favorite parks and hunting and fishing grounds. As authorizers, 
we placed additional parameters on federal land acquisitions so 
that we prioritize access to and through our public lands and 
enhance recreation opportunities on those lands.
    It was just last week that we held a hearing on deferred 
maintenance at our federal land management agencies and 
reinforced where we are with the backlog. The backlog totals 
nearly $20 billion, and it continues to grow despite our 
efforts to increase funding on the Appropriations committees.
    A lot of folks say we can't cut the backlog in half without 
providing full dedicated mandatory funding for LWCF. I think 
most people know I don't like mandatory funding, adding 
mandatory funding, and I question whether tying these together 
makes good sense.
    LWCF itself recognizes the importance of maintaining what 
we already have. The Act states that it is not just about the 
quantity of recreation resources, it is about the quality. 
Addressing the maintenance backlog is the best way to put the 
conservation and recreation system that we built over the last 
50 years, with the help of LWCF, on the path to long-term 
viability.
    Congress and the Executive Branch have previously 
recognized this related purpose, choosing to fund maintenance 
activities through the LWCF. From FY98 through 2001, LWCF was 
used to address the maintenance backlog at all four land 
management agencies. And it is no coincidence that it was in 
those fiscal years that appropriations from the LWCF reached 
and slightly exceeded the $900 million authorized level.
    LWCF also has strong ties to offshore drilling, as most of 
the funding credited to the Fund is coming from OCS revenues. 
That is not lost on me, and I know that Senator Hyde-Smith, 
Senator Cassidy and other coastal state members who support 
revenue sharing also recognize and appreciate that.
    As an appropriator, I continue to hold the view that 
Congress should determine the appropriate level of funding for 
LWCF and how it should be allocated. We should look at it on a 
yearly basis and determine its funding levels relative to all 
of our other needs and priorities.
    I know we have diverse views in this Congress, certainly 
even in this Committee, so the conversation that we are having 
today is a very important one.
    The witnesses that we have gathered, I think, will give us 
a good perspective on these very important issues on how we 
might possibly move forward. Today we have our newly confirmed 
Assistant Secretary for Policy, Management, and Budget, Susan 
Combs, from the Department of the Interior (DOI). Ms. Combs, we 
were really getting tired of seeing your name on that calendar 
for confirmation. So after 600 some odd days, it is nice to see 
you in an official position.
    We also have Deputy Chief Chris French, from the U.S. 
Forest Service, here to help discuss the federal side of the 
program. Congrats to you on your recent promotion.
    Lauren Imgrund is with the National Association of State 
Outdoor Recreation Liaison Officers (NASORLO), and she will 
discuss how states use financial assistance to run and support 
their recreation programs.
    Mr. Collin O'Mara from the National Wildlife Federation can 
speak to how outside partners are able to support the program. 
We have had some really good conversations, and I appreciate 
that.
    Mr. Brian Yablonski will provide a think tank perspective 
from the Property and Environment Research Center (PERC), based 
out of Montana. I know you have had some good ideas out there 
on the table.
    I thank you all for being here with us today, and I look 
forward to a productive discussion.
    I now turn to my friend and Ranking Member, Senator 
Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Chairman Murkowski, thank you for 
scheduling this important hearing to examine the implementation 
of the Land and Water Conservation Fund. I want to thank the 
panel for coming with all their expertise to help us through 
this.
    I am excited for today's discussion about a program that 
continues to demonstrate the benefits of conservation 
throughout this country and enables access for millions of 
Americans and visitors from around the world to enjoy our 
treasured public lands while preserving them for generations to 
come.
    Since 1965, the LWCF has played a vital role in keeping our 
public lands public, and I trust that the program will go on to 
achieve greater success following the permanent reauthorization 
earlier this year. By overwhelming votes of 92 to 8 in the 
Senate and 363 to 62 in the House, Democrats and Republicans 
came together to pass the John D. Dingell, Jr. Conservation, 
Management, and Recreation Act of 2019 which we worked on and 
which is the Lands package which President Trump signed into 
law in March.
    I firmly believe the glue that held the Lands package 
together was the inclusion of LWCF for permanent authorization. 
The Lands package included numerous important provisions that 
will enhance conservation, recreation, hunting and fishing and 
shooting opportunities on federal lands. Nevertheless, Senate 
bill 47 will always be remembered as the legislation that made 
permanent the most successful land conservation program in our 
nation's history.
    I have long supported LWCF which has played a critical role 
and a crucial role in making my little State of West Virginia 
all the more wild and wonderful. In fact, since 1965, $243 
million of LWCF funds have been spent to enhance recreation and 
conservation in West Virginia alone. I know that is not much 
concern to the coastal states which do so much, but we do 
appreciate it very much, I can assure you.
    LWCF funds have been used to provide public access and 
protect many of West Virginia's most popular recreation sites 
including the Dolly Sods Wilderness and Monongahela National 
Forest as well as every access point in the Lower Gauley River 
and the Gauley River National Recreation Area. And if you 
haven't gone rafting, you should.
    While LWCF funds are used to protect important federal 
conservation and recreational lands, the program also provides 
essential funding to states to enhance state and local parks 
and outdoor recreational opportunities. These are not free 
giveaways to states, but rather are matching grants that result 
in increased recreational opportunities at the state and local 
level.
    For example, Ritter Park in Huntington, West Virginia, 
offers miles of walking trails along an area called Fourpole 
Creek. Ritter Park also has numerous tennis courts, playground 
facilities and an amphitheater that is used by the community 
for small events such as concerts and plays. In 2012 Ritter 
Park was named as one of the great public spaces by the 
American Planning Association. Over the years more than 
$625,000 in state LWCF funds has been spent on improvements at 
Ritter Park.
    LWCF also provides other important financial assistance to 
states, including funding for the Forest Legacy Program which 
helps protect working forests on private lands. The LWCF also 
funds the American Battlefield Protection Program which helps 
protect Civil War and Revolutionary War battlefield sites on 
state and private lands, and grants to protect endangered 
species habitat on state and private lands.
    On the federal side, LWCF funds have been used to safeguard 
some of our nation's iconic public lands. The Blue Ridge 
Parkway in North Carolina and Virginia, Acadia National Park in 
Maine, and the Columbia River Gorge in Oregon and Washington 
are just a few examples of areas where LWCF funds have been 
used to ensure that we can set aside these areas for future 
generations and help our public land management agencies follow 
their conservation mission as directed by Congress.
    LWCF funds help complete protection of and provide 
important public access to areas set aside by Congress in 
recognition of their national significance, including lands 
managed by the National Park Service, the U.S. Fish and 
Wildlife Service, the Bureau of Land Management and the Forest 
Service. These investments maintain and enhance the value, 
integrity and public uses of the public lands we already have, 
and they are the heart of America's $887 billion outdoor 
recreation economy.
    Madam Chairman, I was pleased to see GAO recently conclude 
the study that you requested that reviewed how LWCF 
appropriations were spent over the last five years. Overall, 
the report validates the successful implementation of one of 
America's most important conservation programs and offers a 
number of statistics and examples that highlight the public 
value and efficiency of LWCF.
    One example from the report that stands out is the ability 
of the federal LWCF funds to attract non-federal funds to 
advance conservation all over the country.
    In 2016 at the Grand Teton National Park in Wyoming, LWCF 
provided $23 million which was one half of the acquisition cost 
of a very key tract of state-owned land within the boundary of 
the park. That LWCF funding was matched by the National Park 
Foundation and the Grand Teton National Park Foundation which 
together raised the other $23 million necessary to complete the 
acquisition.
    Having reliable, federal LWCF funding allows for federal 
agencies and conservation organizations to plan for when 
opportunities such as this become available.
    Unfortunately, although the LWCF is now permanently 
authorized, the program does not have any certainty of funding, 
as evidenced by the President's budget proposal which 
essentially zeroed out--I repeat, zeroed out--LWCF 
appropriations.
    Today's hearing comes at an important time as the Committee 
starts its work on the next phase of making LWCF an even more 
effective conservation program providing permanent funding.
    I am proud to partner with my friend and fellow Committee 
member, Senator Gardner, on Senate bill 1081, the Land and 
Water Conservation Fund Permanent Funding Act, along with more 
than 40 of our colleagues. Our legislation would provide full, 
permanent funding for the LWCF at a level of $900 million 
annually so the program can continue to preserve, protect and 
invest in our nation's public lands. Permanent funding is the 
next step Congress must take after our historic achievement 
earlier this year to permanently authorize the LWCF program.
    As I noted during last week's hearing on deferred 
maintenance, I recognize that passing bills that provide 
meaningful, dedicated funding will be a challenge, but there is 
broad, bipartisan support for both the deferred maintenance and 
LWCF funding bills. I believe enactment of both these bills 
would have a lasting benefit to many of our nation's most 
treasured lands. It will help improve public access to these 
areas and will enhance the economic benefits of our federal 
lands.
    I look forward to working with the Administration and my 
colleagues to find a way to get these bills signed into law.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Let's go ahead and begin with the testimony of our five 
witnesses. I have introduced each of you to the Committee. We 
would ask that you try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record.
    Ms. Combs, if you would like to kick off the hearing this 
morning and, again, welcome to each of you.

STATEMENT OF HON. SUSAN COMBS, ASSISTANT SECRETARY FOR POLICY, 
     MANAGEMENT AND BUDGET, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Combs. Thank you so much.
    Chairman Murkowski, Ranking Member Manchin and members of 
the Committee, thank you for the opportunity to testify today 
on matters relating to the Land and Water Conservation Fund. 
Your recent efforts to extend authorization of the LWCF 
together with the other elements of Public Law 116-9 provide a 
tremendous opportunity to expand outdoor recreation 
opportunities for all Americans, and we are working hard to 
implement the law.
    As a steward for 20 percent of America's lands, Interior 
works to strike the right balance to manage the public's lands 
and resources, increase access for hunting, fishing and 
recreation and create economic prosperity while protecting and 
preserving America's treasures. The LWCF is one of several 
tools we have to encourage outdoor recreation, manage the 
public lands and support state and local conservation and 
recreation projects.
    Many of Interior's lands are destination areas where 
families like mine plan ahead and sometimes travel far for the 
opportunity to enjoy time together outdoors in some very 
special, natural places.
    Access to Interior's lands also plays a major role in 
supporting America's outdoor recreation economy. We estimate 
that last year Interior lands hosted a combined total of 487 
million visitors at BLM, the Park Service, the Fish and 
Wildlife Service and the Bureau of Reclamation sites. Part of 
Interior's responsibility is to ensure that these visitors have 
a safe and enjoyable outdoor experience at the National Parks, 
refuges and other public lands so they continue to feel pride 
in America's lands and return.
    An important part of our balanced stewardship mission is to 
ensure Interior continues to care for and maintain the lands 
and the infrastructure which are part of the visitor experience 
to the public lands. The condition of our roads, trails, 
visitor centers, rest rooms and campgrounds impact the 
enjoyment of our tremendous lands and natural and cultural 
resources.
    As the Committee recently heard at a hearing on 
infrastructure, Interior's assets need attention. Our deferred 
maintenance backlog was over $16 billion at the end of 2018. 
Addressing the infrastructure maintenance backlog is an 
Administration priority. The Administration's public lands 
infrastructure fund proposal is a concentrated five-year effort 
to make a transformative difference in our deferred maintenance 
backlog and the condition of our facilities. The Administration 
is focused on getting ahead of our deferred maintenance backlog 
and increasing public access for recreation and enjoyment on 
the lands we currently manage. We clearly have a fiduciary 
responsibility to care for the extraordinary lands and 
structures Congress has entrusted to us.
    I'm pleased to join you in this panel discussion today and, 
of course, I'm ready to take any questions you may have.
    [The prepared statement of Ms. Combs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Assistant Secretary.
    Mr. French, welcome.

STATEMENT OF CHRIS FRENCH, ACTING DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, U.S. DEPARTMENT OF AGRICULTURE--FOREST SERVICE

    Mr. French. Good morning, Madam Chairman and members of the 
Committee, thank you for inviting me to be here today.
    My name is Chris French, and I serve as the Deputy Chief of 
the National Forest System with the U.S. Forest Service. I'm 
pleased to be here today to discuss the implementation of the 
Land and Water Conservation Fund by the Forest Service.
    Created in 1964 and permanently authorized by the John D. 
Dingell, Jr. Conservation, Management, and Recreation Act 
(Dingell Act), the LWCF provides money to federal, state and 
local governments to purchase or permanently protect land, 
water and wetlands for the benefit of all Americans. For the 
Forest Service, it helps us maintain critical access to public 
lands, recreation areas, hunting areas and conserve critical 
watersheds.
    The land acquisition program at the Forest Service utilizes 
LWCF appropriations within the boundaries of national forests 
and grasslands to acquire conservation lands and inholdings and 
provide recreational access. The Forest Service land 
acquisition program activities include land exchanges, land 
donations and land purchases using LWCF and other funds 
authorized by Congress.
    For land purchases, the Forest Service works with a variety 
of non-governmental organizations and other willing sellers 
from the public. The demand far outstrips our ability to fund 
all the proposals; therefore, each of the agency's nine regions 
identify projects through a competitive process then submit the 
top projects for final approval to the Washington office.
    Nationally, acquisition projects using LWCF are prioritized 
based on the factors of the Dingell Act, the significance of 
the acquisition, the urgency of the acquisition, management 
efficiencies, management cost savings, geographic distribution, 
threats to the integrity of the land, the recreational value of 
the land.
    Primarily, LWCF funding is used to meet public access needs 
such as large, intact areas for recreation, hunting, fishing, 
by working with willing landowners to secure rights of ways, 
easements or fee simple lands that provide or improve public 
access to existing public lands. The Forest Service prioritizes 
land acquisitions that have broad support of stakeholders, 
local officials and others who want to remove barriers to 
public access and attract more visitors to recreate in a safe, 
accessible environment.
    For example, in Montana, working with the Rocky Mountain 
Elk Foundation, LWCF funding was key to the success of the 
Green Mountain Project. This widely-supported project consists 
of 620 acres of critical public access lands and prime wildlife 
habitat, including elk habitat, along Montana's Rocky Mountain 
Front within the boundary of the Helena-Lewis and Clark 
National Forest. The project transfers this property, its 
public ownership, and creates access to more than 2,000 acres 
of adjacent public land, including the Continental Divide 
National Scenic Trail and the Lewis and Clark National Historic 
Trail.
    Another example includes the acquisition of the Carson 
Townsite lands of both the Rio Grande National Forest and the 
Gunnison National Forest in Colorado. This is the headwaters of 
the Rio Grande and Gunnison River watersheds that supply water 
to nearly six million people. Here LWCF funds were used to 
conserve these headwaters and provide public access on roads 
and trails and to protect viewsheds along the Continental 
Divide.
    The Forest Service also uses LWCF funds for critical 
inholdings to fund the purchase of lands from willing sellers 
that are within the boundaries of national forests and 
grasslands. Reducing inholdings can increase the efficiency of 
federal land management and reduce potential conflicts. We've 
implemented LWCF as an important tool to enhance the services 
that we provide on public lands and to improve the efficiency 
of managing those lands.
    For example, consolidating inholdings allows the agency to 
reduce boundary survey and tree marking activities which, in 
turn, greatly reduces the time and cost of implementing 
critical wildland fuel reduction and forest restoration 
projects. However, with each acquisition we must look at the 
long-term ability of the agency to care for and sustain the 
maintenance for those lands that we're now managing. As you are 
aware, the Forest Service has more than $5 billion in deferred 
maintenance costs across the National Forest System. As we 
acquire lands, we must continue to look for ways to fund and 
repair our infrastructure and ensure that acquisitions, using 
LWCF, do not add to that burden to the greatest extent 
possible.
    Addressing our deferred maintenance is a critical issue 
affecting the Agency's ability to achieve its mission which is 
why the Administration is proposing to establish the Public 
Lands Infrastructure Fund. This proposal would provide 
mandatory spending for the Forest Service and the Department of 
the Interior land management agencies and address deferred 
maintenance, including infrastructure needs and associated with 
access and management across the National Forest System.
    Thank you, and I'd be happy to answer any questions.
    [The prepared statement of Mr. French follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Mr. French.
    Ms. Imgrund, welcome to the Committee.

STATEMENT OF LAUREN S. IMGRUND, PRESIDENT, NATIONAL ASSOCIATION 
          OF STATE OUTDOOR RECREATION LIAISON OFFICERS

    Ms. Imgrund. Chairman Murkowski, Ranking Member Manchin and 
members of the Committee, thank you for providing the National 
Association of State Outdoor Recreation Liaison Officers, 
NASORLO, with this opportunity to provide testimony on the 
implementation of the Land and Water Conservation Fund.
    We are the primary advocate for the State and Local 
Assistance Program of LWCF. Our members are appointed by their 
governors to manage the program on behalf of each state and 
territory. We guide the expenditure of LWCF investments through 
outdoor recreation grants and ensure that these assets remain 
intact and are forever available to the public.
    I currently serve as the President of NASORLO and am the 
State Liaison Officer for Pennsylvania as part of my position 
as Deputy Secretary at the Pennsylvania Department of 
Conservation and Natural Resources.
    In 1958, Congress established the Outdoor Recreation 
Resources Review Commission. The purpose of this Commission was 
to assess the country's outdoor recreation needs. It released a 
report that called for the establishment of a national 
recreation program. A major recommendation was federal funding 
to provide grants to states to assist them in ``recreation 
planning, acquiring lands and developing facilities for outdoor 
recreation.''
    This set the stage for the development and passage in 1964 
of the Land and Water Conservation Fund establishing funding to 
assist states and territories with their outdoor recreation 
needs and to acquire new federal recreation lands. This new 
funding recognized the critical role of states and local 
communities in meeting the nation's outdoor recreation demands. 
As enacted, the law required 60 percent of the funds for state 
purposes. In the 1970s that guaranteed percentage was removed.
    The State and Local Assistance Program has supported access 
to outdoor recreation in communities in every county across the 
country providing close to home outdoor recreation in every 
state and every Congressional District.
    Thank you to the Committee for your longstanding commitment 
to the LWCF State and Local Assistance Program. The successful 
enactment of the Dingell Act and LWCF permanent 
reauthorization, including a guaranteed allocation of 40 
percent of funds for states was a bi-partisan success. NASORLO 
is pleased to see this program stability which will enable 
states to more effectively meet the demand for outdoor 
recreation close to home. Funding is now at a level where we 
can run a significant nationwide program that will allow the 
phased development of parks and funding for larger projects.
    To be eligible for LWCF funds, every state develops a 
Comprehensive Outdoor Recreation Plan every five years. This 
ensures that the state grant programs are responsive to the 
public needs, changing recreation trends and population. Grants 
are selected through an open application process requiring a 
one-to-one match.
    Over 46,000 state and local projects totaling $8 billion 
have been completed. Projects span from State Park 
improvements, to sport fields and playgrounds in small 
communities.
    Since 1965, the State and Local Assistance Program has 
received only 25 percent of appropriated funds. Over the last 
10 years, it has been even less, averaging 19 percent of 
appropriations. However, thanks to your leadership in the last 
three years, the combination of appropriated funds and GOMESA 
funds has returned the program closer to its original levels 
and a level where states can run effective outdoor recreation 
programs.
    For the past five years, NASORLO has been working with the 
National Park Service on identifying issues and suggesting 
program improvements. We're currently working with NPS on a 
manual rewrite which we hope will address some of these needs. 
The improvements we would like to see are outlined in my 
testimony, my written testimony.
    In Pennsylvania I have seen firsthand the impact of this 
funding. For example, in the city of Lancaster we have invested 
$300,000 in LWCF funds in a historic city park. A new all-
inclusive play area encourages safe, outdoor play and 
accommodates children of all abilities. Outdoor play is 
critical, as you know, for children's development, their 
physical health, their mental health and, in fact, the 
development of life skills, leadership, cooperation.
    When I visit LWCF projects for groundbreakings and ribbon 
cuttings, the community enthusiasm is very apparent. Local 
government, community leaders and residents always speak with 
pride about the investments they are making in their park. They 
speak from the heart about how much these assets mean to their 
community.
    NASORLO supports ongoing, full and permanent funding of 
LWCF. Outdoor recreation has long been recognized as critical 
to our health, quality of life and economy. We know that 
federal investments in communities by state and local 
government and the private sector help to create jobs.
    The Land and Water Conservation Fund State and Local 
Assistance Program is the cornerstone of these resources. In 
our growing country, the need for places for kids to play, 
communities to gather and all of us to enjoy the great outdoors 
is increasingly important. States and territories look forward 
to a continued and strengthened partnership with the Federal 
Government in making these critical investments.
    Thank you.
    [The prepared statement of Ms. Imgrund follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you very much.
    Mr. O'Mara, welcome.

    STATEMENT OF COLLIN O'MARA, PRESIDENT AND CEO, NATIONAL 
                      WILDLIFE FEDERATION

    Mr. O'Mara. Thank you, Chairman Murkowski and thank you, 
Ranking Member Manchin.
    I just want to start with a big thank you to the Committee 
for the amazing work on the public lands package. I mean, I 
think it does set the stage for this conversation and just on 
behalf of the National Wildlife Federation, just a huge thank 
you.
    I was enjoying some great LWCF lands the other day in my 
home State of Delaware, and my two-year-old was flipping 
horseshoe crabs. And you know, I think, if you look at the 
history of this program over the last 54 years, there are well 
over 40,000 projects that have been accomplished in every 
single county in the entire country. And there is no more 
successful outdoor recreation or land conservation program in 
the world. It's actually staggering the number of projects that 
have been done.
    I'd like to talk at the beginning just a little bit about 
where we've come as a country over the last 54 years.
    So in 1964 there was about 190 million people in this 
country--and we're at 330 million now. We've lost more than 80 
million acres of open space from development and different 
types of activities as that population has grown. And right 
now, we've got about 9.5 million acres of public lands that we 
can't access because there's no kind of public access points 
around them.
    And so, at a time when we want to get more kids outdoors in 
a time when kids are living on screens and they're not, kind 
of, enjoying those outdoor places, the Land and Water 
Conservation Fund is really the one program that the Federal 
Government and the states have and local governments have to 
provide those kinds of opportunities.
    And for the National Wildlife Federation, we love being a 
partner in these projects because a lot of times it's the glue 
that allows big projects to happen.
    You know, it supports outdoor recreation. It increases 
public access. It gets jobs and local economic development, as 
Senator Manchin already talked about--the $887 billion outdoor 
economy and the 7.5 million jobs. It's a huge gift for 
wildlife--and I'll get back to that in just a second--and it 
improves community resilience. But we've seen an evolution of 
this program in wonderful ways and making sure that nature is 
accessible for folks all across the country, not just folks 
that are, kind of, in more rural areas. And yet, at the same 
time, the only piece that's really missing is the dedicated 
funding.
    And so, since 1978 when the authorization level was pushed 
up to $900 million, it's only been fully funded twice, in 1998 
and 2001, and actually to do a big acquisition in Montana as we 
were trying to build out Yellowstone. So this is a remarkable 
opportunity to help the program realize its full potential by 
ensuring that the funding is mandatory.
    The number of experiences, like, I can't remember what I 
watched on TV three or four days ago, but I can tell you the 
very first time I went hunting with my parents. I can tell you 
the very first time I went camping, you know, on a land that 
was practically all by itself.
    These are the lands that really do create those kinds of 
memories and I think, you know, we'll talk a lot today about 
the economic impacts and the billions of economic value that 
this creates. One of the things that we're seeing more and more 
is that, particularly as the economy becomes more uncertain and 
we're seeing impacts from trade in other parts of the world 
landscape changing, these are jobs that can help bring back 
communities in big ways and we really want to make sure that 
we're investing in those special places to drive this tourism, 
those tourism dollars.
    In my last couple minutes, I just want to talk about five 
areas that we see as incredibly important in the successes of 
the program.
    The first one is around access. And thanks to the 
Chairwoman, we could not be more excited that the Making Public 
Lands Public was part of the sportsmen's package. It's part of 
the bigger Dingell package. We have to do a better job. A lot 
of the biggest success in LWCF in the last few years were 
making lands that were currently inaccessible, accessible by 
having small, targeted acquisitions. And Senator Heinrich has 
been working on a couple of these. We have these amazing places 
that we just can't access, and LWCF is often the glue that 
allows those pieces to be very strategically done.
    And you know, we already talked about the Gauley River and 
the amazing rafting on that. It's another place that has just 
amazing access that wasn't accessible before LWCF.
    We're also seeing more and more communities focus on this, 
using this as a program to make sure nature is within reach. 
And we have a lot of kids in this country that just have no 
access to the outdoors in any kind of meaningful way. And you 
know, trying to make sure that we're driving investment 
strategically into those communities that have recreation 
deserts is incredibly important and working with NASORLO and on 
the state recreation plans, you're seeing more and more focus 
on driving those investments into local communities.
    We're also seeing more and more communities focus on 
acquisitions related to community resilience. I was a Secretary 
of Natural Resources in Delaware during Hurricane Sandy. The 
National Wildlife Refuges and the coastal Delaware environment 
provided such a benefit to the community during those storms 
because of the amount of water those wetlands could hold so the 
communities behind them didn't get flooded out. And that wasn't 
the original--the original purpose of that refuge was really 
for duck hunting, but it had this huge benefit during those 
storms.
    And at that same time on the wildlife side, you know, we've 
seen strategic acquisitions protect migration corridors, affect 
habitat, always with willing landowners trying to protect 
species proactively so we don't need the Endangered Species Act 
or as a way to get species off the list.
    And so, when you look at those different areas, the 
economic benefits are much greater than just the $887 billion 
we throw around, they really are the lifeblood of these 
communities.
    And so, I'll end with a quick quote from President Johnson 
when he signed the law into Act and he said, you know, ``We 
know America cannot be made strong by leadership which only 
reacts to the needs or the irritations or the frustrations of 
the moment. True leadership must provide for the next decade 
and the next decade after that, not merely the next day.''
    We're defined by what we leave behind and this program has 
done a better job protecting those places that make America 
``America'' than any other thing in our government's history.
    Thank you.
    [The prepared statement of Mr. O'Mara follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Mr. O'Mara. We really appreciate 
that.
    Mr. Yablonski, welcome.

STATEMENT OF BRIAN YABLONSKI, EXECUTIVE DIRECTOR, PROPERTY AND 
                  ENVIRONMENT RESEARCH CENTER

    Mr. Yablonski. Thank you.
    Chairman Murkowski, Ranking Member Manchin, members of the 
Committee, my name is Brian Yablonski and I'm the Executive 
Director of the Property and Environment Research Center, a 
conservation research institute based in Bozeman, Montana.
    PERC has a 40-year history of exploring market-based 
solutions to conservation challenges. Prior to moving to 
Montana, I was the Chairman of the Florida Fish and Wildlife 
Conservation Commission where I served for 14 years. Like you, 
I am a proud public landowner, and at PERC we look at how we 
can be better public lands stewards.
    Since its creation to facilitate outdoor recreation, the 
LWCF has provided the means to build trails, construct parks, 
open access and support other recreation projects. In short, 
the program has done excellent work.
    With permanent reauthorization and calls for full funding, 
Congress is wise to review it, particularly in light of 
challenges on public lands today.
    Outdoor recreation has never been more popular. It now 
accounts for $887 billion in consumer spending. The sector is 
growing faster than the overall economy, and recreation visits 
to public lands are surging. I'm one of the lucky ones. Living 
in the shadows of Yellowstone, I have the privilege of 
recreating on some amazing public lands.
    But I'm not alone, after three decades of flat visitation, 
visits to our national parks have surged, increasing by nearly 
50 million people in only five years. Amid this changing 
landscape we must ensure the LWCF is equipped to handle the 
challenges and opportunities of the 21st century.
    First, public land managers should have flexibility to use 
LWCF funds for their greatest conservation needs, including 
land management and maintenance. Growth in outdoor recreation 
is to be celebrated, but it's also translating into more wear 
and tear on public lands. The hiking trails maintenance backlog 
alone totals $740 million. Recently, I spent a day in 
Yellowstone with Superintendent Cam Sholly to see firsthand the 
deferred and cyclic maintenance needs. The condition of 
employee housing is a clear issue of concern. Conservation 
should be about taking care of what we own, including taking 
care of those we charge with conserving.
    The LWCF would benefit from more flexibility to the federal 
purposes component to address such needs whether maintenance, 
land management or other important conservation purposes. 
National Park Superintendents, Forest Supervisors and other 
managers are best positioned to address those on-the-ground 
needs. The LWCF would be more effective if it had more 
flexibility to respond to bottom-up signals about conservation 
and recreation priorities. Outdoor recreation should be as much 
about quality as it is quantity.
    Second, conservation funding models incorporating 
recreation users are more stable and significant. The funding 
record of the LWCF tracks like an EKG readout. While the 
program's funding has been irregular and unpredictable, 
conservation funds relying on users, such as hunters and 
anglers, have proven more reliable.
    As a market-oriented organization, PERC looks to where the 
market is headed, and the market signal is clear. There is 
great opportunity to link funding to the burgeoning recreation 
sector. Tying some portion of LWCF funding to its 
beneficiaries, including hikers, kayakers, climbers, skiers and 
wildlife watchers, would benefit the program enormously. It 
would convert ``stoke'' into real conservation funding.
    Take the North American Wildlife model. Sales of hunting 
and fishing licenses and excise taxes on gear from the Pittman-
Robertson and Dingell-Johnson programs provide nearly 60 
percent of state wildlife conservation funding and recreation 
fees paid by visitors on public lands, nearly equal recent 
appropriations under the LWCF. It seems sensible that the LWCF 
could benefit from the user-pays model of conservation funding.
    Finally, LWCF federal land acquisitions and easements 
should strategically aim to open access to existing public 
lands while respecting private property. A 2018 report by the 
Theodore Roosevelt Conservation Partnership (TRCP) found that 
9.5 million acres of public lands in the West are landlocked. 
Some of the most efficient acquisitions are surgical ones, 
smaller ones that can open thousands of acres for hunters, 
anglers and recreationists.
    The LWCF has a storied record of affording Americans 
recreation opportunities. It's time we help it meet the 
greatest needs of our new recreation landscape.
    Thank you.
    [The prepared statement of Mr. Yablonski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Mr. Yablonski, thank you. Thank you, all. We 
appreciate the opportunity for a good discussion today.
    I think there is one certain point of consensus--every 
person on this panel is a supporter of LWCF. I think it is 
probably fair to say that those of us here, not only on the 
Committee, but in the Congress, are supporters.
    It has been mentioned that from, literally, a historical 
perspective and opportunities for conservation, we have seen 
more from this program over its past 50 years than we have with 
many, many other things that we see here in Congress. So I 
think that that support was demonstrated in the very strong 
vote that we had with our lands package earlier this year with 
the permanent authorization. Now it really comes down to, okay, 
we love it. How do we pay for it?
    Ms. Combs and Mr. French, both of you have mentioned the 
Public Lands Infrastructure Fund (PLIF) as a way to address the 
maintenance backlog issues, but the discussion that we have had 
and where there is seemingly a divide on the issue of LWCF is 
whether or not we would provide full and mandatory funding for 
the program. The very direct question to the two of you is 
whether or not the Administration supports full and mandatory 
funding for LWCF?
    Ms. Combs.
    Ms. Combs. Well, let me just say that the President 
obviously supports LWCF. He signed it into law, I believe, the 
permanent authorization on March----
    The Chairman. And yet, it is my understanding that within 
the appropriations, we don't have anything in the LWCF account.
    Ms. Combs. Yes, I understand that.
    And so, let me, sort of, try to parse this a little bit. I 
heard something interesting from Mr. Yablonski. He talked about 
quality and quantity of the outdoor experience and I talked a 
little bit about, sort of, our obligation. I think the LWCF 
does an absolutely fantastic job, and I heard and I believe 
everything that Collin and Lauren said. I think it's important.
    It's that we are in a slightly different position, Madam 
Chairman, is that we are the land stewards of the stuff that we 
already own. And so, what I would say is that my obligation 
here at the Department of the Interior is to be sure that the 
Yellowstone experience, or wherever, is safe and is correct and 
we take care of the lands that we already have.
    I think this is an extraordinarily important time in you 
all's collective deliberation to decide what do you want to do.
    I would make one comment about the PLIF. When we have a $16 
billion backlog, that focuses my attention a great deal on 
that. And so, the PLIF, I would view that is in some sense kind 
of a--I heard this word used yesterday--kind of a 
transformative event. In five years, we would have about $6.5 
billion to really make an extraordinary change so----
    The Chairman. But let me ask, because my question is very, 
very specific. You are talking about the Public Lands 
Infrastructure Fund, and I think that there is good merit for 
that. We have a bill out there to address just that.
    But the Ranking Member here has a bill. I am sure he will 
ask the same question----
    Senator Manchin. Go ahead.
    The Chairman. ----as to whether or not the Administration 
would support full and mandatory funding, separate and aside 
from what we may do with the Public Lands Infrastructure Fund.
    Ms. Combs. Well, obviously we are dealing with the 
President's budget and the guidance from OMB. And so, the 
budget that we have presented for 2020 represents those 
priorities.
    As I said, the Administration very much supports the LWCF 
but also has a very high priority on the deferred maintenance. 
So that is the challenge that we, at Interior, are facing.
    The Chairman. Let me quickly ask. Mr. Yablonski, you have 
raised addressing the LWCF statute to explicitly include 
maintenance as a federal purpose.
    To those of you, quickly, do you think that we need to 
amend the statute itself to specifically include maintenance as 
a federal purpose for use of LWCF?
    And my time is just about out so very quickly going down 
the row. Yes/no?
    Ms. Combs. I think it's up to Congress to decide.
    The Chairman. Mr. French?
    Mr. French. Yeah, the Administration is not taking a 
position on this.
    Ms. Imgrund. I would say from NASORLO's perspective, no.
    Mr. O'Mara. It's a no. Do it with Restore Our Parks Act 
instead of adding it to this, to LWCF.
    Mr. Yablonski. I would say these decisions involve 
tradeoffs, and so the more flexibility, the better. So, I'd 
say, yes.
    The Chairman. Okay, alright.
    Senator Manchin.
    Senator Manchin. I am more confused now than I was when we 
started.
    [Laughter.]
    First of all, Mr. O'Mara--thank you all, I want to thank 
all the panel. It has been great and I appreciate all of your 
insight.
    One of the most common reasons cited for giving up hunting 
is the inability of access to public lands, as you know, and 
the hunting opportunities and the whole connection that we have 
as our culture.
    It is an important issue for the states out West with 
checkerboard landownership patterns. I am learning more and 
more about the Western issues and Western lands and BLM and all 
the other things. But states like West Virginia and other 
Eastern states, we have limited public lands with most lands in 
private ownership. Can you help us understand some of LWCF's 
successes in expanding wildlife habitat in rural states, in 
Eastern states, along with our Western states too? Very 
quickly.
    Mr. O'Mara. Yeah, so, and Brian mentioned this as well. I 
mean there's been studies that have been done by TRCP and 
others looking at the number of public lands that are just 
inaccessible, a lot of them are BLM lands, in particular.
    Senator Manchin. Some of the things you have been able to 
open up with LWCF?
    Mr. O'Mara. So, I mean, the Gauley, the Gauley River 
example is a perfect one----
    Senator Manchin. Yes.
    Mr. O'Mara. ----in West Virginia.
    And we've seen, you know, that Senator Heinrich was able to 
open up the Sabinoso Wilderness Area with a bunch of different 
funding sources behind that which is the largest wilderness 
area in the country that didn't have access attached to it.
    We've seen opportunities in the Greater Yellowstone kind of 
environments, a place that does allow some consumptive 
activities. I can provide you with a full list. There's dozens 
and dozens of these but there's examples in Arizona. There's 
examples in Colorado.
    Senator Manchin. These are properties we already had. We 
were not able to access them and now we are with the LWCF funds 
that have been able to be directed toward that.
    Mr. O'Mara. And a lot of times it's that surgical, 
strategic investment where, it don't have to be a handful of 
acres, right? You don't need to have everything, you just have 
to have that specific piece to allow access because between 
roads and other private landowners, kind of, shutting off 
access, you don't have it unless you have that single parcel.
    Senator Manchin. Okay.
    And this next question would be, I guess, to Mr. French and 
Ms. Combs, and whoever.
    One week ago, our Committee, I think as Madam Chairman just 
explained, held a hearing on deferred maintenance and public 
lands. We discussed funding to fix the $19 billion backlog and 
solutions like the Restore Our Parks Act of which I am also a 
co-sponsor. At the same time, I am the sponsor of a bill to 
provide mandatory funding for the Land and Water Conservation 
Fund, along with 43 co-sponsors.
    I know some of my colleagues believe we must choose between 
funding the LWCF and the deferred maintenance backlog. But I am 
not in that camp at all.
    So I think my question would be, can you briefly describe 
how much, if any, LWCF acquisitions have added to the 
maintenance backlog? Anybody?
    Ms. Combs. Well, in a practical matter, any piece of land 
that you buy has built in some maintenance backlog. I don't 
have that number carved out for this.
    I do know that the access points that you all talked about 
is hugely important. We think that is an extraordinarily 
positive benefit for the Fund. And I think that the outdoor 
recreation is a hugely important thing to the young kids of 
this country who don't get outside enough. We think it's very, 
very important. But I don't have a specific number for you, 
Senator, I'm sorry.
    Senator Manchin. Yes.
    Mr. French?
    Mr. French. Senator, you know, our deferred maintenance on 
infrastructure is a tremendous issue for us. And so, when we 
look at acquisitions through LWCF, that's actually a key thing 
that we focus on is how do we not inherit additional deferred 
maintenance or infrastructure.
    So we focus our program on making sure when we do those 
purchases that either we're using partners or the work is done 
before we----
    Senator Manchin. Then there are partnerships in almost all 
of these programs?
    Mr. French. That's correct.
    Senator Manchin. And they are very successful in the 
partnerships.
    Mr. French. So we try to limit taking on any new deferred 
maintenance.
    Senator Manchin. Yes.
    Mr. O'Mara, real quick.
    Mr. O'Mara. And just one note I would add is that there's a 
lot of places where acquisitions, the kind that are 
strategically done, actually reduce the maintenance cost, long-
term, right?
    So you're seeing places where you have fencing or different 
types of habitat management or conflict with local landowners 
where they really would like to sell, but this is where 
predictability comes in, right? Because it's hard for these 
guys to be able to plan for acquisitions if they have no idea 
what the funding level is going to be which is why we do need 
the dedicated, permanent funding at the 900 level so they can 
make those decisions, but----
    Senator Manchin. Well, there is going to be an awful lot of 
argument back and forth on putting money dedicated or we are 
going to be, basically, permanently funding, if we vote to 
permanently fund LWCF and it is going to add more to the 
backlog. And I don't believe that. I want to make sure if we 
can get some accurate figures to show that it is just not 
accurate----
    Mr. O'Mara. Right.
    Senator Manchin. ----to be able to say automatically that 
happens to increase this.
    Mr. O'Mara. Right.
    Senator Manchin. Ms. Combs, this is going to be a yes or no 
question, very quickly.
    There is a process of putting budgets together and I know 
when I was Governor, I had every agency basically give me their 
request. They gave me the request and we would look at it, 
strategically, and see what we could do and what we couldn't do 
and how much of whatever we eliminated something.
    Can you tell me what your request was for LWCF?
    Ms. Combs. Our request is because----
    Senator Manchin. In the budget, when you put the budget in, 
your request to the Executive Branch?
    Ms. Combs. I beg your pardon?
    Senator Manchin. I would assume you put your request in to 
the Executive Branch, basically, and they review that.
    Ms. Combs. Yes, the budget that was put in does not have 
any funding for the LWCF.
    Senator Manchin. So you didn't request anything?
    Ms. Combs. No, sir.
    Senator Manchin. You left it zero?
    Ms. Combs. Yes, sir.
    Senator Manchin. That's not good.
    Thank you.
    The Chairman. Senator Lee.
    Senator Lee. Thank you, Madam Chair, for holding this 
hearing. Thanks to each of you for coming to talk to us about 
these important issues today.
    Mr. O'Mara, I would like to start with you, if that is 
okay?
    Mr. O'Mara. Yes, sir.
    Senator Lee. One week ago today, on June 18th, 2019, your 
foundation posted an article, an article that made the argument 
that LWCF funding should be full and it should be mandatory and 
it should be made permanent. One of the core assumptions, I 
think, that is underlying that assertion within your article is 
the position that the LWCF is funded, ``At no cost to the 
taxpayers.'' This just is not true.
    While I acknowledge that oil and gas revenues may fund a 
portion of the LWCF, I also have to stress that these revenues 
are paid for by hardworking Americans, hardworking Americans 
who depend on oil and gas every single day and who pay for it. 
They rely on that as an energy source, and it is not as though 
it is free.
    In addition to this, every single dollar that is siphoned 
away from the Treasury for the LWCF is one dollar less for 
other programs--programs that are supported by Democrats and 
Republicans alike in both houses of Congress.
    In addition to this, when those dollars are used for 
purchasing additional federal land, that, in turn, results in 
the existence of less other land, other non-federal land, 
whether it is private land owned by an individual or by a 
corporation or, in some cases, like the State Institutional 
Trust Lands Administration in Utah, state-owned land that is 
designed to bring in revenue so as to support a public 
education system.
    Every time that happens, that puts additional strain on 
local communities because it reduces their tax base. You are 
taking out land that they can no longer tax. It can no longer 
be put to productive use in most circumstances so they can't 
tax it. And so, that puts an additional strain on other 
programs, such as a program known as PILT which stands for 
Payment in Lieu of Taxes. All these are consequences, and they 
are certainly things that can be described as costs to the 
taxpayers.
    So I wanted to ask you a couple questions about this.
    First, are you familiar with PILT?
    Mr. O'Mara. Yes.
    Senator Lee. So you are familiar with the fact that the 
PILT program purports to reimburse local taxing authorities, 
generally counties, in public land states. And I am somewhat 
envious of some of my colleagues who acknowledge that they 
don't have much, if any, federal land in their state.
    It is great to have national parks. There are some federal 
lands that we depend on for recreation and other purposes, and 
they are wonderful.
    In some counties in Utah we have in excess of 90 percent, 
in some counties in excess of 95 percent of the land that is 
owned by the Federal Government, meaning it is not subject to 
taxation, most of the time it can't be developed without a 
``Mother May I'' from the Federal Government. As a result, the 
tax revenue doesn't come in and it puts a strain on our ability 
to fund everything from schools to fire suppression to search 
and rescue, all of which are made more difficult by that.
    I assume you would not tell those communities that LWCF 
does not cost a dime when they are getting paid pennies on the 
dollar for PILT for what they could be paid if they were able 
to tax that land, even at their lowest green bill rate.
    Mr. O'Mara. So, the premise of the program, originally, was 
fairly simple, right? If we're going to take value out of the 
land, of a public resource, you know, mainly off the coast of 
Louisiana, we're going to put the value back into land and that 
the royalties would be paid regardless, and therefore, a 
portion of that should go back to have the nexus with 
conservation because that's where the impact is.
    Now a lot of the lands that have been conserved do allow 
working for us, ranching, allow different types of agriculture 
activities. And then a lot of communities do benefit from the 
economic activity in the form of hotel nights and restaurant 
meals--and different retailers.
    But we would love to work with you to make sure that we 
find ways to bolster these local economies in strong ways. We 
just think that having conserved assets that drive tourism and 
drive additional recreation activity is a great way to support 
economic development in communities across the country.
    Senator Lee. So do you acknowledge that the use of federal 
revenues for additional land acquisition under LWCF does, in 
fact, deplete the dollars available for other programs, 
programs that might be impacting the nation at large while most 
of the LWCF dollars may be spent and focused in the West?
    Mr. O'Mara. Yes, and I also believe though, that if a 
public resource is being depleted for a private gain, for the 
most part, that some of that money should go back toward 
conservation to make sure that we're mitigating the impact we 
had on the landscape.
    Senator Lee. Fair enough.
    I see my time is expired, Madam Chair, but I just want to 
respond to that by pointing out that I don't disagree in the 
abstract with that statement. But at a time when we have an 
enormous backlog, an enormous federal estate amounting to about 
30 percent of the land mass in the United States, and that is 
hurting a lot of the rural communities disproportionately in 
certain states, like mine where people don't have a tax base. 
They don't even have a job base anymore because of restrictions 
attached to that land and because of the fact that they can't 
tax it and it can't be used for most things.
    Add to that the fact that they also have a huge, staggering 
backlog for maintenance of those lands. It begs the question in 
my mind whether this really is the best use of these dollars to 
buy more land rather than taking care of the land we already 
own.
    Thank you.
    The Chairman. Thank you, Senator Lee.
    Senator Hirono.
    Senator Hirono. Thank you. I would like to thank you for 
your strong support of LWCF. As we focus on the implementation 
of LWCF, let's not lose sight of the importance of land 
acquisition to this program.
    I suppose since most of the land acquisition under this 
program is through both federal--among federal, state and 
private dollars to pay for the acquisition, I say that if a 
state does not want to have its lands go for public purposes 
because it wants to maintain a source of revenues for the 
state, then the state doesn't have to access the LWCF funds.
    So I do want to point out the importance of LWCF funds in 
Hawaii. The benefits this fund have provided to Hawaii have 
been tremendous. Just last fall, the acquisition of the 2,882-
acre Helemano Wilderness Recreation Area was completed thanks 
to a mixture of federal, state and private dollars, including 
$5 million in funding from the Forest Legacy Program. Among the 
many benefits that conserving this land will provide include 
protecting habitat for endangered species such as the Hawaiian 
hoary bat, providing Oahu residents with new outdoor recreation 
opportunities and protecting central Oahu's aquifer.
    Also, last April I was fortunate to attend the Blessing 
Ceremony marking the sale of the McCandless Ranch to the U.S. 
Fish and Wildlife Service to expand the Hakalau Forest National 
Wildlife Refuge on the island of Hawaii, made possible by the 
Hawaii ``Island Forests at Risk'' collaborative proposal. And 
when I spoke with the owner of the McCandless Ranch, he told me 
that the majority of the interested buyers of his property were 
loggers or developers, entities that would have ruined habitat 
that was the last location for the endangered Alala, or crow, 
seen in the wild.
    Some critics of the Land and Water Conservation Fund point 
out how expensive the federal land acquisitions are and argue 
that the money would be better spent going to other needs such 
as maintenance. That is what we have been hearing this morning. 
However, we cannot ignore the cost of inaction like what the 
cost would be of losing the McCandless Ranch land to a 
developer or a logger.
    So Mr. O'Mara, I appreciate that in your testimony you 
discuss the important contributions of LWCF funds to protect 
wildlife, drinking water and increasing community resilience.
    Can you discuss the urgency with acquiring some of these 
lands and the costs of inaction if Congress were to stop 
funding land acquisitions? Can you just briefly go over some of 
those concerns?
    Mr. O'Mara. Given the, kind of, rapid increase in land 
values in places like Hawaii and around the country, I mean, 
every year we delay it just becomes more expensive.
    Senator Hirono. Especially land in Hawaii is very 
expensive.
    Mr. O'Mara. Very expensive.
    And I think, you know, you increasingly see federal 
agencies that are focused strategically on inholdings and 
properties that, you know, kind of, help complete parks, 
improve management, connect ecosystems. But I mean, if we had 
fully funded the program at the 900-level starting in 1978 for 
the full time, a lot of the parcels that we're going back to 
acquire today for either access or other things could have been 
purchased at a fraction of the cost. I mean, think about places 
in Montana and Idaho, you know, today that are much more 
expensive than they would have been before. And again, it's not 
to own, you know, it's being very strategic about which ones 
make the most sense with a collaborative process. But it has 
been, kind of, penny-wise and pound-foolish if we're trying to 
build a comprehensive recreation system across the country.
    Senator Hirono. And it is not as though the land 
acquisition process is a short process. As Mr. French noted, 
there are something like seven criteria factors that go into 
whether or not we are going to seek that kind of land 
acquisition, not to mention it requires a willing seller. We 
are not forcing anybody to sell the land to the Federal 
Government.
    I am kind of astounded, Ms. Combs, that the Interior 
Department did not request any money for LWCF funds. That was 
your testimony, correct?
    Ms. Combs. Yes, ma'am.
    Senator Hirono. Yes.
    We all recognize on this Committee that there is a 
tremendous backlog on maintenance, $16 billion or so, but what 
I don't understand is why we should pick one or the other. 
Wouldn't you support both? Wouldn't you support LWCF funding as 
well as this new fund that you are proposing to address the 
backlog problem?
    Ms. Combs. The Department does support both. Secretary 
Bernhardt testified he very much supports the Land and Water 
Conservation----
    Senator Hirono. Then why would you request zero funding for 
LWCF?
    Ms. Combs. We are going to be sure that we take care of the 
President's budget and his priorities were the backlog and 
deferred maintenance and that was our number one priority in 
our budget, Senator.
    Senator Hirono. So you have made it very clear that LWCF is 
not a number one priority even as the President continues to 
ask for billions of dollars for a wall. I think it is very 
clear what the priorities of this Administration are.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair and Ranking Member 
Manchin, for holding this hearing and Senator Manchin, thank 
you for the work that we have been able to do on the Land and 
Water Conservation Fund with this legislation that I hope will 
be passed soon by the Senate and the House and on its way to 
the President.
    Madam Chair, thank you for your work on the lands bill that 
passed earlier this year. I think it was one of the most 
significant conservation packages we have seen in a decade, and 
I was very pleased with the number of people in this room who 
collaborated to make that legislation a reality, including, I 
think, a very striking display of bicameral, bipartisan 
support. It shows what can be done when people come together, 
putting aside politics and actually wanting to get good work 
done for their states.
    Of course, the lands bill had the permanent authorization 
of the Land and Water Conservation Fund which is a first step 
in making sure that this crown jewel of conservation programs 
continues well into the future. And now the legislation that we 
have before us is an opportunity to make sure that it has the 
funds necessary to continue providing public access, public 
opportunities and enjoyment of our great and wonderful public 
lands in Colorado and elsewhere.
    In Colorado we have about 35 percent of the land that is 
held by the Federal Government and we know about 300,000 acres 
of those lands are inaccessible. That is, basically, an area 
the size of Rocky Mountain National Park that is inaccessible 
in Colorado because it is landlocked where you just cannot get 
a public road to it. The Land and Water Conservation Fund has 
become a critical access point to help address some of those 
concerns.
    One of the questions I had for the witnesses today, there 
is a recent study out showing that of the 2.8 million acres in 
Colorado that are held by the State of Colorado, about 64 
percent of those 2.8 million acres are inaccessible. If you 
look at 16 percent of them, I think, you just can't get to them 
because there are no public roads. You have 64 percent that are 
inaccessible and then you have some 20 percent that may be open 
for part of the season for hunting or other access but not open 
year-round. But that is a lot of land. That is even more than 
the Federal Government has in terms of inaccessible to it.
    Can you use Land and Water Conservation Fund, the state 
funds and others to help, perhaps, provide solutions for the 
state landlock issues?
    Ms. Imgrund?
    Ms. Imgrund. Sure, as I mentioned before, every grant in 
the program comes from the Statewide Comprehensive Outdoor 
Recreation Plan process that each state goes through. And I 
know Colorado has a great plan, not familiar exactly with what 
it calls for in that plan, but in general, these funds 
absolutely can be used for that type of activity.
    Again, public recreation access to existing lands, 
expansion of state parks, et cetera, are key assets and key 
important things in the Land and Water Conservation Fund State 
Assistance Program.
    Senator Gardner. Yes, and thank you. I think this effort, 
the Land and Water Conservation Fund, has given about $278 
million to the State of Colorado alone, and it has gone to 
improving access for things like outdoor recreation.
    This is a $28 billion economy in Colorado in consumer 
spending, the outdoor recreation economy. And so, when we think 
about important issues like protecting our economy, protecting 
our manufacturing base, protecting our energy base, we also 
have to look at this incredibly economically important driver 
of our recreation base. That is what the Land and Water 
Conservation Fund will help us do with a $28 billion driver of 
our economy that we can actually do, put policies around, to 
make that, continue to allow that industry to thrive, that 
economy to grow and the hundreds of thousands of jobs that it 
creates.
    So we have to get this bill done. This is the crown jewel. 
It shows our constituents that have so much support for 
protecting our public lands that the Congress can and will, 
indeed, find an additional way to work together and to work 
forward on this important solution.
    I have a number of questions for Susan, I am sorry, Ms. 
Combs. I am just asking a question.
    How do we make sure that we balance, because I think we 
can, this is a smart country, the people of this country are 
very talented, we can balance the need for making sure we catch 
up with the backlog but also using the Land and Water 
Conservation Fund to acquire opportunities as they present 
themselves?
    Ms. Combs. Well, I look forward, very much, Senator, to 
working with you on this because I do think that we can strike 
a balance. I think we have to strike a balance, and I think we 
have to be creative. And so, I look forward to working with you 
in your great state.
    Senator Gardner. Thank you.
    Madam Chair, thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Heinrich.
    Senator Heinrich. I want to thank Senator Gardner for 
making the point that I think very effectively refutes some of 
the talking points that we heard earlier in the hearing that 
somehow LWCF acquisitions are not put to productive economic 
use, because I think most Western states can speak that nothing 
could be further from the truth.
    And when you look at the scale of hunting and fishing and 
the outdoor recreation economy and how, in many Western states, 
that economic activity now eclipses traditional sectors like 
mining and agriculture. This is not something where we are 
taking lands out of economic productivity. In many cases, we 
are enhancing the economic productivity of those counties. It 
is why you see county commissions send letters to me saying 
please, please make this LWCF acquisition because this would be 
good for our local economy, be it for hunting or fishing or 
mountain biking or a number of other things that often drive 
these rural economies today.
    So it brings me back to Ms. Combs. I am having an 
impossible time squaring what you are saying with your budget. 
You said some very flowery things about the Land and Water 
Conservation program, but I guess I would just ask you, what 
should my constituents believe, the flowery words or the zeroes 
that went into the budget for Land and Water Conservation Fund 
acquisitions? Because I can guarantee you there is a demand 
among my constituents in my state for those targeted 
acquisitions, particularly for access.
    Ms. Combs. Senator, obviously, National Park Service and 
others and BLM take a look and, if Congress gives us funding to 
do a land acquisition, we follow the same, kind of, process. We 
work with the local communities to find out what are the 
important elements they need, where are the access points?
    We're also working across the bureaus that we have now 
operating. The Secretary just announced about two weeks ago 
that we're going to be opening up to outdoor recreation about 
1.4 million acres of Fish and Wildlife Refuges, et cetera.
    Senator Heinrich. I appreciate that and I think that is 
good policy, but when you put a zero in for acquisitions and we 
know that there are literally millions of acres that are closed 
to recreational use, closed to the recreational economy and 
closed to the public, it is indefensible, in my opinion, that 
we have zero line items for Land and Water Conservation Fund 
acquisitions when you hear the amount of support around this 
dais for it.
    Maintenance and infrastructure is the job of Interior. It 
is the job of Agriculture. And we are in the current backlog 
situation, not because of LWCF which is working. We are in the 
current backlog situation because, with the exception of Fish 
and Wildlife which has done a remarkable job in the last couple 
of years, the Administration and these agencies have under-
resourced maintenance and infrastructure. We need to fix that, 
and we owe that to the American people to fix that. But to 
somehow blame the Land and Water Conservation Fund for the 
mismanagement and the misinvestment, to me, is absolutely 
ridiculous, and I think putting zeroes in the budget line items 
is also absolutely ridiculous.
    Mr. O'Mara, I want to ask you, can you talk a little bit 
about how Land and Water Conservation Fund acquisitions can 
actually save money on an operational basis?
    For example, you know, one way that I am familiar with is 
sometimes the impact on fire management when you have a broken 
or checkerboarded land management pattern and then suddenly you 
can manage that landscape as a landscape as opposed to a bunch 
of little pieces.
    Mr. O'Mara?
    Mr. O'Mara. And I'll build on Mr. French's testimony. I 
mean, I think, you know, especially in the West where you do 
have the checkerboard, whether it's fire management, more 
wildlife habitat corridor management, basic habitat restoration 
projects, it just becomes much more complicated if there's a 
lack of clarity over a bit of different management techniques 
in different places. You have fencing issues in a lot of places 
where you wouldn't need them otherwise if there was more 
contiguous ownership.
    So we've seen examples where, you know, maintenance costs 
and restoration costs go down fairly precipitously and given 
the fires that we're seeing, we should have more landscape 
scale management so we're managing at a landscape scale as 
opposed to a parcel level which, you know, fire doesn't respond 
to or respect the parcel boundaries that we've imposed on these 
landscapes.
    Senator Heinrich. Thank you, Madam Chair. I am going to 
yield back the last 18 seconds of my time.
    The Chairman. We will give those 18 seconds to Senator 
Barrasso, who has quickly airdropped in.
    Senator Barrasso. Thank you so much, Madam Chairman. I want 
to thank you for holding this meeting. I appreciate the timing 
of today's hearing, because just last month the Government 
Accountability Office released their report about the Land and 
Water Conservation Fund. We are also in the midst of the 
appropriations process and in my home State of Wyoming, summer 
use of public lands is well underway.
    Over the years, the Land and Water Conservation Fund has 
funded important works all across the country. There is no 
question about it. In Wyoming, LWCF has provided funding for 
rodeo grounds in Meeteetse, for a shooting range in Lusk, and a 
variety of softball and baseball fields. These kinds of 
projects don't comprise, regrettably, the majority of funds 
that are expanded under the LWCF during the whole 54-year 
history.
    While I support what the Land and Water Conservation Fund 
is trying to accomplish, the projects, I recognize the 
significance for the communities around the country. I am still 
concerned about how funding is allocated and prioritized and 
how Congress will remain engaged in the future.
    Congress has made progress in returning the LWCF 
appropriations and apportionments to their original intent 
during the lands package. I continue to believe that 60 percent 
stateside and 40 percent federal allocation should be 
reinstated. It is how it was originally set up.
    When describing the federal side of the program it would be 
much more accurate to call it the Land and Water Acquisition 
Fund. You know, over the 54-year history of the program, about 
27 percent of all the funds have been allocated for stateside 
grant programs while more than $11 billion, 60 percent, of the 
money has been used for federal land acquisition.
    Now that $11 billion reference seems familiar and it is 
worth discussing because, Madam Chairman, just last week you 
and Ranking Member Manchin called a hearing here to review the 
deferred maintenance backlogs of all the federal and land 
management programs. And I will tell you, all of these agencies 
are authorized to acquire land using the federal side of the 
Land and Water Conservation Fund. The National Park Service, 
alone, has an $11 billion backlog.
    Generally, federal LWCF funds are limited to acquisition, 
and although the Act authorizes other purposes like forest 
legacy and facility management, the GAO recently reported that 
the historical average for all these other purposes was just 14 
percent. You are well aware of the problem with that.
    I think that if we are really going to have a conversation 
about conservation of land and water, we have to take a hard 
look at what action is going to provide for the best future for 
these resources. In some cases, the resources may benefit from 
other management decisions rather than adding them to the roles 
of federal agencies whose deferred maintenance backlogs that 
this Committee routinely debates.
    So before I turn to the witnesses, just one final concern. 
Last Congress the Committee debated a proposal that would have 
provided mandatory funding for the Land and Water Conservation 
Fund. I said it then and I will say it now, I don't believe 
Congress should abdicate its responsibility to take a hard look 
at the priorities of this each year as we make important 
decisions about natural resource management, the federal estate 
and the priorities of our constituents. I think it is a 
valuable program. I believe Congress should ensure it continues 
to provide value to the constituents and to local communities.
    Ms. Combs, over the last ten years, how much money do you 
think for the ``other purposes'' of the Fund did the Interior 
agencies collectively use for facility management, for 
ecosystem restoration, for other authorized uses?
    Ms. Combs. Senator, not as much as was used, obviously--and 
I can get you those percentages, I've seen them--as it was for 
acquisition. And that's been the primary focus has been 
acquisition. And that was, a lot of it was inholdings and 
within parks which were very, very valuable to go ahead and get 
an inholding and if they were not for other purposes.
    Senator Barrasso. Mr. French, do you have any idea in terms 
of the Forest Service?
    Mr. French. Again, I don't have those specific numbers, but 
it's very similar to the Department of the Interior and we'll 
follow up with you on those.
    Senator Barrasso. No, I appreciate it because a couple 
weeks ago the Committee held a very valuable hearing on 
wildfire and the outlook for 2019. And again, last week, the 
Forest Service's deferred maintenance backlog was clearly tied 
to funding for wildfire mitigation activities. This week, we 
are talking about how a vast majority of funds have been used 
to add more assets to the federal sites.
    So over the last ten or so years, we look at these other 
purposes and funding and how it has been used for activities, 
and I want to make sure we are doing things that we need to do 
in terms of wildlife prevention and mitigation. Any additional 
thoughts on that?
    Okay, and if not, go ahead.
    Ms. Combs. Senator, I would just say that both Forest 
Service and Interior are very, very focused about wildland 
fire, you know, wildland-urban interface. It is an 
extraordinary problem.
    And I'm pleased to announce that we've got a great 
partnership with the Forest Service, but the West is burning, 
the East is able to burn and those funds for suppression and 
prevention and post-fire restoration are incredibly important 
to the humans that reside in those areas and to the resources 
that got burned up.
    Senator Barrasso. Well, yes.
    Madam Chairman, I just want to be clear. I support the Land 
and Water Conservation Fund. I am committed to ensuring robust, 
public access to our natural resources. I am equally committed 
to ensuring that our vast forests and our prairies and 
waterways remain healthy for future generations. I know that 
the Land and Water Conservation Fund is a part of that, but I 
believe we need to continue to allow the Fund to adapt to 
current and emerging needs and continue to have these 
conversations.
    Thank you for the hearing today.
    The Chairman. Senator King.
    Senator King. I find myself agreeing with the Senator from 
Wyoming. But it seems to me there are two separate 
conversations, two separate issues at stake. One is funding and 
then what to do with the funding. Those are the two issues.
    The problem, as I see it, is right now we have a proposal 
for no funding and, yet, we are talking about the importance of 
land conservation. I am reminded of the old poem, ``Mother, may 
I go out to swim? Yes, my darling daughter, Hang your clothes 
on a hickory limb, but don't go near the water.''
    Having this structure of we just reauthorized permanently 
the Land and Water Conservation Fund, but if we don't fund it, 
it doesn't mean anything.
    I guess the question before us is, we ought to fund it to 
the authorized level. I disagree with the Senator from Utah, 
this is money that comes in and you characterized it, it comes 
from the land and it was designed in 1965 to go back to the 
land. I mean, that is exactly what this purpose was, and to the 
extent that we are siphoning off these funds for other, 
entirely different purposes, that is really not appropriate. 
Then the question is allocation.
    Mr. Yablonski, in your testimony, I do want to clarify one 
issue. You mentioned that there might be demands on the Fund 
from other purposes like the Restore Our Parks Act. The Restore 
Our Parks Act explicitly does not----
    Mr. Yablonski. Yeah.
    Senator King. ----go into the Land and Water Conservation 
Fund. It is right in the language of the bill, the Restore Our 
Parks Act is funded by excess revenues that would otherwise go 
into the Treasury. So I just want to clarify that it is not a 
violation of the Land and Water Conservation Act funding.
    Mr. O'Mara, am I correct about the fundamental structure 
that this is from the land to the land?
    Mr. O'Mara. And the idea was very simple when Secretary 
Udall and President Kennedy proposed it which was if we're 
going to take a public asset and basically liquidate it and 
turn it into value, a lot of which is private, some of the 
revenues from that should be put back into the land to make 
sure that we're mitigating the impact we've had.
    Senator King. But over the years it has been siphoned off, 
it has not been allocated at all. I think there are only two 
years it has been funded to its maximum in the last 20, is that 
true?
    Mr. O'Mara. Yeah, so in 1978 it was increased to $900 
million. Only two years, 1998 and 2001, has it been allocated 
fully. Twenty-two billion dollars that should have gone toward 
the Land and Water Conservation Fund have been used for other 
purposes, just siphoned off and raided into the other Treasury 
park programs.
    Senator King. And if we talk about using it for 
maintenance, that is not what it was originally intended for, 
is that correct?
    Mr. O'Mara. Correct. I mean, the idea was that this was 
going to create recreational opportunities and access 
opportunities across the country. And this is why I think the 
legislation you're leading with others is very complementary, 
but it's a separate piece of legislation that should be 
supported on its own right as opposed to being merged into this 
bill.
    Senator King. Mr. Yablonski, convince me that this money 
should be used for maintenance when that was not its original 
purpose.
    Mr. Yablonski. Well, actually, so the original purpose of 
the statute was to facilitate outdoor recreation. And I would 
say it would be really compelling to figure out what our public 
land managers believe would facilitate outdoor recreation the 
best.
    I think in many cases, access, roads, campgrounds, trail 
maintenance is better linked to, or better linked to recreation 
than potentially acquisition. So that's why I would think that, 
you know, again, going back to the original purpose of the Act, 
if we really want to facilitate recreation, what might our 
public land managers believe would really facilitate public 
outdoor recreation and again, campgrounds, trails?
    There's a trail in Bozeman, Montana, Sacagawea Peak, that I 
take my family to hike to, and there's a road up there to the 
Ferry Lake Trailhead. It is more dangerous for me to drive that 
road to the Ferry Lake Trailhead than to haul myself 2,000 feet 
up to tag the top of that peak. So as a recreationist I would 
say, in that particular case, maintenance would be more 
important.
    Senator King. Madam Chair, is the allocation of these funds 
within the jurisdiction of this Committee in authorizing 
legislation or is it strictly appropriations?
    The Chairman. We included in our legislation last year a 
calibration, if you will, of state side to federal side. So 
yes, we did that.
    Senator King. It requires, as I recall, it was----
    The Chairman. Forty and 40 and then there was the specific 
set aside as well for additional uses.
    Senator King. Then the question is whether the 
Appropriations Committee pours the money into the fund----
    The Chairman. Correct.
    Senator King. ----that will then go into those.
    The Chairman. But we dealt with the clarification as to the 
state side piece because what had happened, as I mentioned in 
my opening, was we were seeing greater acquisition, greater 
dollars being sent to the federal side as opposed to the state 
side.
    Senator King. And our bill, as I recall, changed that, 
fixed that.
    The Chairman. Correct.
    Senator King. So, that is----
    The Chairman. Correct, so that is within this Committee's 
jurisdiction.
    Senator King. Good. Thank you.
    Thank you all, and thank you for your testimony today. I 
think this is an important subject.
    Madam Chair, thank you for calling this hearing.
    The Chairman. Thank you.
    Senator McSally.
    Senator McSally. Thank you, Madam Chair, for this very 
important hearing. The Land and Water Conservation Fund is 
really important to Arizona. As an outdoorswoman myself, I very 
much appreciate the value of the Fund and how it has impacted 
Arizona.
    Outdoor recreation in Arizona is a $21 billion industry, 
supports more than 200,000 jobs and generates nearly $1.5 
billion in state and local taxes. So this is an economic issue 
as well as an access issue and a conservation issue.
    We have benefited over the last 50 years in Arizona from 
$240 million of LWCF funds. Investments have benefited projects 
both large and small, from iconic national parks to local 
outdoor recreation areas within local communities.
    I have been a consistent supporter of the LWCF throughout 
my time in Congress, and I am glad that we joined together in 
order to permanently reauthorize it as part of the lands 
package last year.
    Mr. O'Mara, I want to highlight, ask you to talk a little 
bit further about a case you highlighted in your testimony in 
Arizona. You mentioned a recent conservation success story 
about the ET Ranch near Safford, Arizona. Can you elaborate 
more how local stakeholders were involved in this process and 
how it will benefit the residents and the visitors to the area?
    Mr. O'Mara. Yeah, so it's a wonderful project and it's a 
project that brought together partners from a range of 
different conservation groups, working with the state, working 
with yourself, working with the state government as well as the 
federal agencies.
    And the idea was to improve public access to a 6,600-acre 
BLM Wilderness Area that was not accessible for the most part 
around Safford and then the nearby 26,000-acre, 27,000-acre, 
Santa Teresa Wilderness Area as well. And so, by protecting 
these 600 acres, very strategically in the ET Ranch, we were 
able to connect, kind of, these areas and providing access for 
the first time ever. And I think for the residents of that area 
that have had these lands, kind of, viewable, but not 
necessarily accessible, kind of look, but don't touch.
    Senator McSally. Exactly.
    Mr. O'Mara. It's transformative. And the local community is 
benefiting already from tourism and more folks going to the 
area. So, it's a great win-win-win.
    Senator McSally. No, it is a fantastic success story, when 
you think about it, how we preserve these amazing areas but 
then we can't let anybody have access to them. This is a 
perfect example of it making sense based on its original intent 
and being a good investment.
    I next want to pick up on the discussion that is sort of 
ongoing which is, we do have a massive backlog in maintaining 
our federal lands and, as we know, the Land and Water 
Conservation Fund has focused mostly on acquisition of new 
lands.
    I realize there are some people advocating that these are 
two separate decisions, but in reality if we are choosing to 
increase federal lands, there has to be some element in the 
decision-making process of whether we can sustain those lands 
and whether that is practical and affordable as well.
    Ms. Combs, could you share in the decision-making process 
whether there is any element of the sustainability and the 
maintenance and the cost as these acquisitions are under 
consideration?
    Ms. Combs. From the federal side, which is, of course, what 
we take care of, we look at this and I think Collin's made an 
interesting point about, sort of, if you get an inholding then 
you may not have to fence it off, et cetera. And there's 
certainly some efficiencies there.
    I would say, however, from anybody that owns a piece of 
property, if it's got a structure on it of some kind, you may 
have a maintenance, probably you may have a roof or something. 
So you have to take a look at that.
    And they're trying to balance, if you're National Park 
Service or whomever, you're trying to balance, what is the 
value to the surrounding land and is it worth it? And then you 
get it, sort of, voted up through a panel and what you are 
always trying to do is to not add more deferred maintenance.
    It is such an unfortunate requirement to focus on that, but 
we do understand that the access is critically important and 
the example you gave of the 600 acres opening things up, I 
think that is extraordinarily poignant, look but don't touch.
    It really is important for us to really examine each parcel 
and what is its potential net. Is there a debt negative burden? 
And is it, of course, outweighed by the positive benefit? And 
so, we ask the National Park Service and BLM and Fish to take a 
really hard look at that each time, and we think that's very 
important. So it's an ongoing conversation with respect to each 
and every parcel.
    Senator McSally. Okay, great.
    Any other panel member want to comment on that part of the 
process? Yes, sir?
    Mr. Yablonski. Yeah, Senator, I would just say, so when the 
lands package passed, LWCF was permanently reauthorized so 
permanent is a pretty long time. It goes forever and ever. And 
the allocations were locked in permanently too, is my 
understanding, at the 40 percent for federal purposes which has 
been defined primarily, if not solely, acquisition, 20 percent 
for other purposes which is that flexible pot that maybe you 
could use for maintenance or for other programs. But 20 percent 
historically, if you look at the last ten years, is probably 
the lowest percentage that it's ever been. So that's been 
locked in.
    So it would just seem to make sense when you're looking at 
something that's forever and ever, maybe there are acquisition 
needs that are here and now, but as you move forward in the 
life of the program, you may shift even more and more to 
maintenance. There will be, sort of, a critical mass of 
acquisition and then it will need maintenance and you would 
think Congress would want to have that flexibility in a 
permanent program to be able to shift to the highest 
priorities.
    Senator McSally. Great, thanks for your perspective. I am 
out of time.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator McSally.
    Senator Daines.
    Senator Daines. Thank you, Chairman Murkowski.
    The Land and Water Conservation Fund has been absolutely 
critical to the State of Montana. It is remarkable, 70 percent 
of our fishing accesses have been funded through LWCF. In fact, 
this time of year, if you are in the Minneapolis Airport, 
Denver, Salt Lake, Dallas, Atlanta and checking the flight that 
is going to Bozeman--which I make that trek back and forth 
virtually every week--there are as many flyrods getting on that 
plane as there are passengers. It is an incredible driver for 
our economy in Montana.
    The beauty of that is fly fishers come out to Montana, and 
I was fly fishing in Montana before Brad Pitt discovered it 
back in the '90s. But it is catch and release. Our fishing has 
never been stronger in terms of fish per mile. It has wonderful 
ecosystems, and now we can access them because of the Land and 
Water Conservation Fund and these fishing access sites. It is 
critical to unlocking access to our public lands. We have very 
unique stream access laws in Montana. The public can access 
from high-water mark to high-water mark.
    LWCF supports our logging activities to ensure that we are 
better stewards of our forests, protecting our timber industry 
and the jobs there, the Forest Legacy Program, protecting water 
quality in very important watersheds for our communities in 
Montana. LWCF allows ranching families to keep their businesses 
and heritage in the family. It protects habitat for many of our 
state's iconic wildlife species, and there is much, much more 
in Montana.
    Our public lands, our outdoor recreation opportunities in 
Montana, they are the envy of the world. They are our way of 
life, and much of that has been enabled because of the Land and 
Water Conservation Fund.
    Earlier this Congress, we took a historic step to 
permanently reauthorize LWCF by passing a bipartisan public 
lands package. It took a public lands package to bring divided 
government together.
    While I appreciate today's hearing to focus on the 
oversight of this program, I encourage this Committee to back 
up the commitment we made earlier this year and that is to 
provide full dedicated funding for the program. That is why I 
was happy to introduce a bipartisan bill, Senate bill 1081, the 
Land and Water Conservation Fund Permanent Funding Act to fully 
fund this program. I am glad the House Natural Resource 
Committee took action just last week to report their 
counterpart legislation out of their committee, and I encourage 
this Committee to act quickly.
    While enacting permanent reauthorization was important to 
ensure the American people that the program is here to stay, 
there is substantial need in Montana to provide the certainty 
that funding will also exist year after year.
    There are plans underway by our state to build more fishing 
accesses to some of our more popular rivers that become 
overcrowded now in the summertime. There are still over 1.5 
million acres, 1.5 million acres, of public land in Montana 
that is inaccessible to the public. The Nature Conservancy's 
Clearwater Blackfoot project--100,000 acres of forest lands 
that are in need of funding for targeted easements, targeted 
acquisitions and other forest projects to keep this landscape 
working. The Lolo Trails Landmark area--14,000 acres of premier 
recreation, outdoor recreation lands, vital hunting access on 
these lands themselves and on adjacent national forest 
ownership. LWCF is also a critical tool to building and 
restoring big game wildlife corridors, looking at migration 
patterns of our wildlife which I know is a priority for this 
Administration. These uses are all critical to supporting our 
some $7 billion outdoor economy that we find in Montana as it 
relates to recreation. We need to act now, and I encourage this 
Committee to take that action.
    So my question is for Mr. O'Mara.
    Could you speak to the importance of enacting Senate bill 
1081 providing for full mandatory spending of LWCF?
    Mr. O'Mara. Yeah, thank you, Senator, and thanks for your 
incredible leadership on this. It's the most important step we 
can take for conservation in this country right now.
    If you look at the number of communities that have public 
lands that they cannot access because of a lack of access 
points and you think about the transformative nature of 
investments that you've helped make in, like, the Tenderfoot or 
in the Rocky Mountain Front, you know, allowing that kind of 
access creates opportunities for local economies that are, 
frankly, in desperate need of more opportunities right now.
    And so, I think, there's a lot of priorities before the 
Congress, but this is absolutely one of our top to try to get 
done this year.
    Senator Daines. Mr. Yablonski mentioned the Sacagawea Peak 
and the Ferry Lake access too. One of the challenges we face 
right now is we love our public lands, and the areas where we 
have great access to public lands tend to be growing, places 
like my hometown of Bozeman. We just need to continue to invest 
here because when you go to trails now, they are crowded. And 
we need to continue to invest here.
    And last, I will say this, we look at the $7 billion 
economy for Montana for outdoor recreation, I think that is 
just the tip of an iceberg. And the reason I say that is 
because when you look at the reason companies are growing and 
the reason people are moving to Montana, it is because of the 
access to our public lands, the way of life that we have.
    I think there is a whole other economy there that's 
happening and can fit in our high-tech category because men and 
women want to enjoy where they work. They like to play as well 
as work hard, and that is all part of this economy that is 
growing right now in many parts of Montana.
    Thank you, Chairman Murkowski.
    The Chairman. Thank you, Senator Daines.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    And Madam Chair, I want to thank you and Ranking Member 
Manchin for holding this hearing on important implementations 
affecting the Land and Water Conservation Fund. In my view, the 
big implementation issue with this critical program is 
inadequate funding.
    You and I, Madam Chair, have talked about this since the 
days when I was Chair of the Committee and we worked on it, and 
the issue is as important now as it was then.
    I do want to get into an issue that, to my knowledge, Madam 
Chair, has not been discussed in this Committee, but I think it 
is going to have to be discussed because it reflects a 
development that was reported on in the news just in the last 
couple of days. In the last couple of days, it came to light 
that millions of acres in the West are now being bought up by 
just a few private landowners, and this has introduced a whole 
host of new issues. Apparently, according to these news 
reports, some of these private landowners essentially are 
asking people about their political views before allowing local 
folks to cross onto public lands. Now if this is the case and 
if it is widespread and, again, this is a brand-new news report 
and all of us know that it ought to be taken in that context, 
this ought to be concerning to all Americans in this Committee. 
Publicly owned lands are everybody's lands and this Committee 
has always had the responsibility of doing oversight to making 
sure that public lands meant just that, that public lands 
ensured equal access.
    So I thought, Mr. O'Mara, apropos of this, what do you know 
about this development, if anything, and what are your thoughts 
about the prospect of the possibility of new, very large, 
private landowners in effect developing something which I don't 
know of in the law, as a former Chair of the Committee, 
basically saying you can have a political test that determines 
whether somebody gets access to public lands.
    Tell me what, if anything, you know about this development. 
How serious it is and maybe it is not serious and what you 
think about the concept of having almost a political litmus 
test for getting access to public lands?
    Mr. O'Mara. Yeah, I mean, so across the--thank you for the 
question.
    Across the West we are seeing, kind of, these large and 
very wealthy individuals buying up more and more tracts. And 
it's actually a little more insidious than you even mentioned, 
in that you're seeing folks actually try to shut down existing 
public access, public roads, things like that, that are public 
assets so they're basically either just closing on their own 
with like, kind of, gates and the like or trying to go to 
county commissions to get them to condemn roads in some cases, 
trying to make it all private.
    There's 9.5 million acres that are currently inaccessible 
that are public lands, federal open lands that the public just 
cannot get to right now. That number is actually going to get 
bigger if some of these acquisitions occur, some of these, kind 
of, large landowners buy more land and then try to shut down 
additional access. And frankly, it's changing the very nature 
of, kind of, conservation in some communities.
    Like in Idaho, for example, lands that have been accessible 
for a long time, even though they're privately held, there's 
just, kind of, a common understanding that if folks were going 
to hunt responsibly or fish responsibly, that that would be 
allowed. And you are seeing these--I haven't seen so much on 
the political test, but I am seeing folks shut down land that's 
been accessible for generations.
    And you think about, like in Oregon or like the John Day 
River, like the little acquisition that you led, you know, a 
few years ago, you know, made that waterway accessible at 
scale. If we lose those opportunities then we don't have a tool 
to combat that, like full funding of LWCF. We're going to see 
more and more access be lost in over that time in the years 
ahead.
    Senator Wyden. I don't have much more time. I would like to 
hold the record open for you to outline any additional views 
you may have on this. I know it is striking you as something 
that you were not prepared to be asked about this morning.
    I would only ask, Madam Chair, if we could discuss this in 
the days ahead because I was struck by this news just a couple 
of days ago. The article was very detailed. It was, of course, 
just a news report. But if even a portion of what was described 
there is accurate, particularly with respect to access of 
public lands, that is something we have always gotten into. And 
under your leadership and the Ranking Minority Member, I would 
very much like to see us get into it.
    The Chairman. Well, I appreciate that, Senator Wyden. I, 
too, read the article with great interest and probably similar 
concern.
    I think that is a subject that is important for this 
Committee's discussion, but I think also one of the points that 
Mr. O'Mara raised in that you do have significant, significant 
lands that are being bought up by very wealthy individuals 
that, again, are cutting off what we would assume to be 
historic access to hunting and fishing. It is a reality that 
the lands that we seek to enjoy are becoming more and more 
limited whether it is through what was described in the New 
York Times article or the very significant areas of land that 
we drive by and say, well, I remember being able to go fish on 
that, but now it is owned by X millionaire.
    Senator Wyden. Madam Chair, my time is up. I very much 
share your view as it relates to hunting and fishing and these 
other uses. I am going to be heading home to rural Oregon this 
weekend. I am sure I am going to hear about that.
    I thank you for your thoughtful response and look forward 
to having the chance to talk about it.
    The Chairman. Thank you.
    Senator Hoeven.
    Senator Hoeven. All that talk about hunting and fishing is 
making me anxious to go hunting and fishing.
    [Laughter.]
    Thanks to all of you for being here.
    Assistant Secretary Combs, the deferred maintenance backlog 
for the National Park Service has grown to over $12 billion. It 
is many millions in our state and I am sure in every state.
    Does the authority of the LWCF State and Local Assistance 
Program, as administered by the National Park Service, extend 
to the maintenance of infrastructure, for example, road repair? 
In our national parks, we need road repair. What is being done 
there? What can be done?
    Ms. Combs. Senator, let me make sure I understand your 
question. Are you asking about, what is Parks doing right now 
if it's road repair or is this related----
    Senator Hoeven. Road repair in the parks.
    Ms. Combs. Well, we're way behind. We're about $16 billion 
in the hole on all across everything. The bulk of it is in the 
National Park Service. For example, there is a water line that 
is not, that breaks a lot in the Grand Canyon area. We have 
roads that don't work. We have buildings that don't work. We 
have toilets that don't work. We have a horrible deferred 
maintenance backlog. And so, that is why the Administration has 
supported the effort to go ahead and have a short, but very 
important five-year period to take money out of the energy 
that's produced from the lands that are held by Interior, put 
them back into these lands and see that we can transform this 
and turn this around and have a safe and enjoyable experience 
for our customers, who we have hundreds of millions of people.
    Senator Hoeven. So you are a strong supporter of the 
Restore Our Parks Act of which I am a co-sponsor----
    Ms. Combs. Yes, I am.
    Senator Hoeven. ----and feel that the infrastructure 
funding is an absolute priority for our National Parks?
    Ms. Combs. Yes, I do and I would say we, all of us here at 
this panel, support recreation. We support outdoor activities.
    It's just that our focus is on, primarily on, the assets, 
the land assets that we have in order that we can provide the 
best value to the wonderful families and people that come and 
visit them. And it's got to be safe and it's got to be an 
enjoyable experience.
    Senator Hoeven. That sure seems like a bill we ought to be 
able to move because it is also bipartisan.
    Mr. French, as of last year the Forest Service managed 
approximately 193 million acres, with 80 million acres, or 40 
percent, deemed to be at high risk of wildfire.
    Talk to me about how you work with the local ranchers and 
others that live either on the, like the grasslands, the 
tenants and that live out and near the, you know, these 
national, these public lands. Talk to me about how you are 
working with them in terms of controlling wildfire because it 
affects them too, right? Do you do controlled burns or any of 
those kind of things, that can affect ranchers in the area or, 
for example, ranchers on the national grasslands?
    Mr. French. Yeah, thank you, Senator.
    That is a huge issue for us, both for the protection of 
their livelihoods and then for the resources that we're asked 
to manage.
    This is one of those areas in terms of access that becomes 
really important--whether it is through easements or through 
coordination with local ranchers or through permanent access--
that road infrastructure and getting into those areas where we 
have wildfires is critical. We have to create close working 
relationships with those folks so that we can actually access 
the lands to provide that wildfire suppression.
    Senator Hoeven. Good. I think that is really important.
    I think it makes you more effective and it certainly makes 
for better relations out there, helps them, and what you do has 
a very significant impact on them.
    What about your deferred maintenance backlog?
    Mr. French. It's huge. And you know, probably the biggest 
factor that has affected us on our deferred maintenance 
actually is the cost of wildfire suppression.
    And right now, we have more than 370,000 miles of road and 
13,000 bridges. We need that infrastructure just to go in and 
access to provide wildfire suppression and prevention 
activities on behalf of recreationist, our grazing communities, 
our forest products industry. Having a sustainable, well 
maintained set of infrastructure is critical for those 
responses. Our total backlog is about $5.2 billion and one of 
our primary focuses right now is how to get ahead of that.
    Senator Hoeven. So that access and that infrastructure, is 
very important to you?
    Mr. French. Incredibly important.
    Senator Hoeven. Okay.
    Ms. Imgrund, how does the Land and Water Conservation 
Fund's State and Local Assistance Program help states keep up 
with local recreational infrastructure needs? I mean, now I am 
talking about some partnerships, well, partnerships with the 
states and then also any public-private partnerships too. 
Again, going back to meeting that critical infrastructure need.
    Ms. Imgrund. Sure. Parks are really a form of equity in the 
United States so that having a whole bunch of different kinds 
of parks is really important to the outdoor recreation needs 
across the country.
    In states, the grant programs support projects that are 
identified by local communities. So those local communities and 
the states, itself, can apply for money for acquisition and for 
development of parks. The maintenance and stewardship of those 
parks is the responsibility of the local and state governments. 
So federal funds are not used for the ongoing maintenance and 
stewardship of those local parks, but those local and state 
parks are supported and improved through the federal Land and 
Water Conservation Fund.
    Senator Hoeven. You mentioned in your testimony, though, 
ways to improve access to public lands and outdoor recreation. 
Do you believe there could be improvements to the LWCF State 
and Local Assistance Program? And could those improvements be 
implemented administratively or does it require action by 
Congress?
    Ms. Imgrund. There are a number of improvements that could 
be made to the program such as assuring that funds are more 
readily available to the states. I think that full funding 
would assist with that because the National Park Service and 
the Department of the Interior would have certainty on the 
funding that was going to be going to the states and could more 
quickly apportion the funding to the states.
    There are also a number of other issues such as the need 
for some administrative support for the states to steward the 
sites over time which would come out of the regular LWCF 
allocation. We'd like to talk about that. We think that could 
be done for the appropriations process.
    And we're also interested in looking at an extension of an 
area that's called Temporary Nonconforming Use. So each LWCF 
site is protected permanently when the funding is allocated 
from the Federal Government to the state and then to the grant. 
Those funds, then the states inspect those areas every five 
years to assure that they are still being used for outdoor 
recreation. But sometimes, those areas, there might be a small 
project that either expands the recreational access to the park 
or as a highway project that might take part of the park as a 
staging area for a short period of time. In other words, the 
park is not permanently converted, but it's converted for a 
short period of time. Currently that is allowed for six months, 
and we would like to see that changed to three years. We also 
think that that could be done through the appropriations 
process, because it was previously done through a conference 
committee report.
    The Chairman. Thank you.
    Senator Hoeven. Well, that is good, you have the 
Appropriations Chairman here to talk to about it.
    [Laughter.]
    Thank you, Madam Chairman.
    The Chairman. Thank you.
    Let's go to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and thanks for 
having this important hearing. I so appreciate all my 
colleagues' viewpoints. I feel like a lot of people put cards 
on the table this morning as to how we make our way through 
this process. And I certainly appreciate all the hard work of 
the Chair and the Ranking Member on trying to figure this out 
and move forward.
    You know, I come from a state that can be somewhat 
empathetic to all of the viewpoints that have been discussed 
here. I mean, certainly there are counties in Washington State 
that are 80, or a very high percentage of public/federal land 
and yes, we want PILT money and we are a state that definitely 
has a lot of national parks and we want backlog and maintenance 
and certainly, certainly, believe in LWCF.
    I forgot, my colleague from Maine asked for--yes, yes, 
please go ahead.
    Senator King. One question for the record.
    The Chairman. Certainly, Senator King.
    Senator King. If you all could share your thoughts with us 
in writing after this hearing.
    My concern with the use of LWCF for maintenance is a kind 
of moral hazard problem that if LWCF becomes the go-to fund for 
maintenance, nobody will ever have a maintenance budget again. 
And then what we are really doing is facilitating both 
Congress' and the agencies' avoidance of doing deferred 
maintenance.
    The word deferred means somebody put it off. And so, if you 
could give us your thoughts. Maybe a matching requirement if 
LWCF puts up some maintenance money, the agencies have to put 
up a matching amount? I don't know. I am looking for guidance 
here because if we use LWCF, it would take the whole fund for 
15 years just to cover deferred maintenance and I am worried 
about the moral hazard. So thank you very much.
    Thank you, Madam Chair.
    Senator Cantwell. Thank you.
    Playing into that, I guess, my point is I know some people 
think we definitely used LWCF to help us not increase the 
backlog and maintenance. I mean, that is what we did at Mount 
Rainier by fixing the Carbon River because it was flooding out. 
That is what we have done in expanding land at White Salmon. So 
the notion that somehow this is, you know, counter, it is 
helping us.
    The question is, my personal viewpoint this morning would 
be, why do we collect, why do we have this money in the budget 
for LWCF and then not spend it--more than 50 percent of the 
money is not spent?
    And so, when I look at it, I look at this report, Ms. 
Combs, that the Department of the Interior did two years ago 
now that basically said, 101.6 million people access 
recreation, hunting and fishing in the United States of 
America. That should be the premise for increasing more access 
to public lands. That is a great report. I hope we update it in 
2019.
    The outdoor economy with over $887 billion of consumer 
spending and 7.6 million jobs and an opportunity for rural 
communities just to add a little bit of investment to attract 
people to come for rural economies is just--I hope that we will 
figure this out.
    Mr. O'Mara, I wanted to ask you, because one of the reasons 
why I am so anxious about figuring this out and getting it 
right to continue making the investments in LWCF and to take 
care of the backlog and maintenance is I feel like climate is 
impacting our public lands. If we don't have all the tools to 
best deal with that, then we are going to be challenged, 
whether it is at Denali where you might have some erosion or 
like we had with the Carbon River. Why is this even more urgent 
now to figure this out and not steal from Peter to pay Paul, 
but to come up with ways to deal with both of these programs?
    Mr. O'Mara. And I appreciate the question. And look, you're 
in an unenviable position as a Committee because you're 
basically on the back end of having decades of underinvestment 
in our public lands. I mean, if these are public lands then in 
many ways it's going to be our salvation and on the climate 
side between natural carbon sinks as well as trying to have 
more resilient lands.
    We haven't treated them that way. We haven't treated them 
very well. And I think whether it's, you know, improved forest 
management because we are able to acquire individual parcels 
that allow, like landscape scale, for fire management or if 
it's resilience around conservation and wetlands that absorb 
millions of gallons of water so communities behind them don't 
get flooded out, this is going to be one of the most important 
tools we have to make communities safer and more resilient as 
you start seeing more impacts. And it's got to be part of the 
bigger suite. And frankly, you know, we're in the richest 
country in the world, we have to figure out a way to fund land 
conservation, habitat restoration and maintenance at a time 
when we need all three given the impacts we're seeing on the 
landscape.
    Senator Cantwell. And to make sure that we are not losing, 
I would hope that Interior would update that report and then 
show us, if we took care of backlog and maintenance and made 
the proper investments in LWCF, what kind of economic return we 
might get as a nation because if we are at $887 billion now and 
further investment.
    Look, I know there are properties in the State of 
Washington that I would like to see upgraded, that I think 
would attract even more people to come. I am sure there are 
also properties in Glacier National Park and other places. But 
we also have to realize if we don't have the proper investment, 
we might lose some of the access because of the impacts of 
climate. I really think we ought to get that number as well so 
we can see. Can we work with you, Ms. Combs, on that?
    Ms. Combs. Absolutely, Senator. Thank you.
    Senator Cantwell. Alright.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    We have had an opportunity to hear from quite a range of 
Senators here today. I think it speaks, again, to the level of 
interest in this matter and the challenges that we have in 
front of us.
    I wanted to ask a question just relatively quickly here 
because, Mr. Yablonski, you, in your testimony referred to, 
kind of, an alternative to the mandatory funding piece, in 
terms of a proposal to use user fees as a potential offset 
following the Pittman-Robertson Fund that has been successfully 
implemented for decades. It is something that I have thrown out 
there in different conversations just to try to test the 
temperature, if you will. You have actually released a report, 
``How We Pay to Play,'' which examines the implementation.
    So let me start with you first and ask for your suggestions 
or your thoughts as to how Congress, if we were to implement 
this type of a user fee to support recreation funding, how do 
you suggest that that is structured? And then as he is 
responding to that, Mr. O'Mara, I am going to ask you to weigh 
in here, give your views on this as something for us to 
consider.
    Mr. Yablonski. Right.
    Well, Madam Chair, as you know, I mean, this is an enormous 
opportunity to bring an additional source of revenue to the 
table for all the conservation needs that we've been talking 
about here today.
    Sportsmen, as our report laid out, through hunting and 
fishing licenses bring in about $1.6 billion a year and excise 
taxes on deer and equipment related to hunting and fishing 
brings in an additional $1.1 billion a year for wildlife 
conservation. So you put those two together, you have $2.7 
billion going to states for wildlife conservation. Essentially 
sportsmen are underwriting the majority of wildlife 
conservation in America today.
    And you compare that number to the $400+ million with LWCF 
and you see that there's this potential if you could look at 
the market and where it's growing and we keep hearing here 
today about outdoor recreation and this is, sort of, the 
shifting sands of preferences and demographics, but an $887 
billion economic output. If you were to tap one tenth of one 
percent of that, you would fully fund LWCF at the levels that 
everybody is seeking forever and ever.
    So one, you know, opportunity here is to look to the 
outdoor recreationists, people like me. I'm a--I go hunting and 
for every ten times I go hunting, nine of those times I'm a 
hiker, maybe only one time, you know, I'm a bad hunter, so 
maybe one time out of ten, I'm actually a hunter. But I don't 
pay anything as a hiker for the impacts I have to trailheads 
and to the trails that I'm actually hiking on.
    So I think part of this needs to be a bottoms-up thing. I 
think with the hunting and angling community in the 1930s and 
1950s, they bought into this. There was an ownership interest 
in conservation, and they wanted this kind of license and they 
wanted the excise tax. And they guarded it jealously.
    And I really think it's incumbent on the outdoor recreation 
community to, sort of, have this ground swell and figure out 
how they can, sort of, what I would call, BYOLR, Bring Your Own 
Life Raft, and actually be a part of the solution here where 
you have an ownership interest in conservation funding going 
forward.
    The Chairman. Mr. O'Mara, your thoughts?
    Mr. O'Mara. I'm hesitant to disagree with my good friend, 
Brian, but the American people have already paid in some way. I 
know it doesn't score well and it doesn't, kind of, meet, kind 
of the CBO, the way we think about scoring. But the deal that 
was cut in 1964 was this idea that we're going to be having to 
liquidate additional public resources in the form of offshore 
oil and gas to meet the growing population at the time, and 
therefore, those revenues should go toward conservation to 
basically mitigate the impact.
    And so, I get that it doesn't score because it's money that 
could otherwise go to Treasury, but in some ways, they already 
have paid through the degradation of our public resources.
    I mean, and as someone who my organization helped, kind of, 
write Pittman-Robertson in 1937, it has been incredibly 
successful. We've done a wonderful job bringing back white-
tailed deer and elk and mule deer and pronghorn and a whole 
range of sport fish and wild turkeys and a whole range of 
waterfowl. We've also done a pretty bad job with everything we 
don't hunt and fish.
    And one of the challenges we face right now is a lot of the 
species that are in trouble, you can create a moral hazard in 
the design of these programs because in that case, because the 
funding came from sportsmen, they rightfully, including myself, 
want the conservation of game species. We didn't see a lot of 
work on, kind of, other areas, so we would love to work with 
you on trying to figure out ways to fund all these things.
    I do think we hold conservation to a higher bar than we do 
other parts of funding in the budget. I mean, when you see 
places that we've waived pay-go. You see places where, you 
know, supplementals or OCO or things like that, we tend not to 
hold conservation to the same standard, we tend to hold it to a 
higher bar.
    But this is a tough conversation but I do think that, you 
know, taxing backpacks and things like that, probably isn't the 
right way to go if we're going to try to have a permanent, 
sustained funding model. We should be able to find a couple 
billion dollars in a multi-trillion-dollar budget for 
conservation that supports an $887 billion economy.
    Senator Manchin. I want to follow up on that.
    The Chairman. Senator Manchin.
    Senator Manchin. Yes, it is very interesting to me.
    Somehow there has to be skin in the game. We all have to 
have skin in the game. And I think that Collin, you just 
mentioned that you think that the taxpayers already have skin 
in the game. They are paying. With that though, the money is 
dedicated from offshore, I understand. But we have a $23 
trillion debt. Nobody is even talking about that.
    This is going to hit us so hard and the next generation is 
not going to be able to carry the load. And no one, I mean, not 
a Democrat, not a Republican, is talking about the financial 
crisis that is going to hit this country and hit it so hard, we 
won't be able to breathe. It will make 1927, 1928 look like a 
blip on the radar screen. And nobody has raised a flag on that 
one.
    To me, you are talking about, Brian, I think, basically in 
all the things we use, camping gear, this, that, and everything 
else, if there was a fee. I don't know. What type of percentage 
are you talking about, the same as what we do on ammo, the 10, 
11 percent? Are you talking in that 5 to 10 percent range?
    Mr. Yablonski. I don't even think it would have to be that 
high. I mean, depending on the gear that's being used. There's 
so much more gear, potentially, that's being used in the 
outdoor recreation world that you could really diffuse that 
kind of a----
    Senator Manchin. So, a five percent fee, maybe?
    Mr. Yablonski. Yeah, something like that would certainly--
--
    Senator Manchin. Okay.
    But with that, if we had something written into legislation 
that says, for the amount of money that we, as the Federal 
Government had to appropriate a match for that money that we 
were collecting.
    Mr. Yablonski. Right.
    Senator Manchin. That went directly toward.
    Mr. Yablonski. Right.
    Senator Manchin. You are talking about directly toward 
deferred maintenance.
    Mr. Yablonski. That's right, or any of the conservation 
needs. I mean----
    Senator Manchin. I know, but if we don't start directing 
money toward deferred maintenance--we are having a hard time.
    Mr. Yablonski. Right.
    Senator Manchin. We are talking about permanent funding of 
LWCF. Basically, for us to continue the great program and all 
the work that has been done, what we do with LWCF, if we 
broaden that thing out, I will swear to goodness, we will end 
up, if everyone else starts raiding that piggybank, we won't be 
getting what we are getting now. We are very much concerned 
about that. I am.
    This additional pot of money really intrigues me because 
then it makes the Federal Government, it makes all of us, step 
to the plate and says, okay, the private sector has put in 
this. We have to match this. This is mandatory appropriations.
    Mr. Yablonski. And Mr. Senator, if I may?
    Historically, that match on the sportsmen side that has 
been brought to the table, the Pittman-Robertson and Dingell-
Johnson.
    Senator Manchin. Yes.
    Mr. Yablonski. Those funds had been pretty immune to 
raiding or shifting money out of there, and I think that's 
because the sportsmen really have a vested interest in it. I 
mean, they stand over the shoulders and say, where is my money 
going?
    We had a case in Florida where a legislator actually wanted 
to eliminate fishing licenses for a year. The groups that 
fought that right out of the chute were the anglers and the 
fishermen because they knew that revenue was going straight 
back to angling, fishing, biology, recreation or conservation 
that benefited them.
    Mr. O'Mara. And like I said, some other generation is going 
to end up paying for the deficit. You know, look, but it wasn't 
conservation that drove any of that, right? I mean, between the 
wars and the tax cuts, the stimulus. I mean, like, you look at 
the places where the big pieces came from. I would argue that, 
you know, we were at about, I don't know, two percent of the 
federal budget was going toward conservation during the Carter 
and Nixon Administrations. We're like, well less than one 
percent right now.
    A generation of disinvestment in this area, as we increase 
entitlements, as we increase defense spending, as we increase 
all these other things, are the reasons why we're paying 
hundreds of billions of dollars right now in disaster relief 
for wildfires, for flooding. I mean, like we haven't conserved 
these natural systems. We've got companies that can't make them 
move the landscape because of ESA because we have to save the 
species proactively, so we're trying to do it after the fact.
    Land and Water is an important piece of that equation, and 
I think there's places where--we're incredibly penny-wise and 
pound-foolish as a government, right? Well, we're paying for it 
regardless. I mean, you guys are going to have to vote on 
another $100 billion of supplementals at the end of this 
Congress because of the hurricanes and the forest fires--
they're going to come inevitably.
    And so, a little bit of investment that allows us to reduce 
that cost because you know every $1 we spend in this area, 
especially if it's mitigation focused, is going to save us $4 
somewhere else in the budget. Anybody that had that kind of 
return in the private sector would take that in a heartbeat. 
But yet, we always put things off because it's easier and it's 
the next person's job.
    So I would encourage us to think about what the avoided 
cost if we're thinking about the long-term scoring, the long-
term applications on the debt, not just, kind of, the hard line 
item because it's just gotten us to a place right now where, 
you know, we've got folks suffering from wildfires that, 
frankly, should never be in that position if Chris had the 
resources he needed to actually manage our forests and to get 
them healthier and have them more fire resilient. But we keep, 
we wind up in this feedback loop, unfortunately. But we're 
paying the consequences because we're doing the preventative 
measure on the front end.
    Senator Manchin. Good, good, good conversations, good 
panel.
    The Chairman. Thank you all. This has been important 
discussion.
    This is just a reminder to us, as a Committee, the role 
that we play when it comes to the stewardship of our lands and 
access to them. It is not just about buying them, making sure 
that they are there as public assets, but what we then do with 
them, how we care for them.
    I think we recognize that we have failed in that category 
in terms of caring for much of our public lands and this is 
why, I think, we are having this tension now where people like 
me are saying, you have acquired enough or certainly, at least 
in my state. Now let's make sure that you are doing right, you 
are being honest with how you are caring for these lands 
because when we want to talk about access, it is not just 
making sure that it is there in that colored spot on the map, 
but it is a place that I want to go to because it is not 
trashed.
    We have some important considerations here, but I think 
there is clearly a commitment from folks on this Committee and 
throughout the Senate, throughout the Congress, that we want to 
try to do right by our public lands.
    Your comment, Mr. O'Mara, about, you know, you can't 
remember the last movie you went to or what you ate, but you do 
remember your hiking trips. There is a connection to the land, 
I think, that we all have. And for those who don't have that, I 
feel sorry for them because they are missing a very important 
part of who we are and what we can connect to.
    I think I am extraordinarily blessed to have what I have in 
my state, and I am thankful for that. And I want to make sure 
that others have an opportunity for continued use and 
enjoyment. That is how we take care of things.
    With that, we stand adjourned.
    [Whereupon, at 12:12 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                [all]
</pre></body></html>
